<html>
<title> - MEDIA OUTREACH TO VETERANS: AN UPDATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                 MEDIA OUTREACH TO VETERANS: AN UPDATE

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

                           Serial No. 110-106

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
44-933 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  HARRY E. MITCHELL, Arizona, Chairman

ZACHARY T. SPACE, Ohio               GINNY BROWN-WAITE, Florida, 
TIMOTHY J. WALZ, Minnesota           Ranking
CIRO D. RODRIGUEZ, Texas             CLIFF STEARNS, Florida
                                     BRIAN P. BILBRAY, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                           September 23, 2008

                                                                   Page
Media Outreach to Veterans: An Update............................     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    30

                               WITNESSES

U.S. Department of Veterans Affairs, Hon. Lisette M. Mondello, 
  Assistant Secretary for Public and Intergovernmental Affairs...    27
    Prepared statement of Hon. Mondello..........................    41

                                 ______

Hawthorne, Brian, Washington, DC.................................     3
    Prepared statement of Mr. Hawthorne..........................    31
Iraq and Afghanistan Veterans of America, Carolyn Schapper, 
  Representative.................................................    11
    Prepared statement of Ms. Schapper...........................    36
MDB Communications, Inc., Washington, DC, Cary Hatch, President 
  and Chief Executive Officer....................................    21
    Prepared statement of Ms. Hatch..............................    39
Spann, Wade J., Washington, DC...................................     6
    Prepared statement of Mr. Spann..............................    33
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    12
    Prepared statement of Mr. Weidman............................    37

                   MATERIAL SUBMITTED FOR THE RECORD

Post Hearing Questions and Responses for the Record:
    Hon. Harry E. Mitchell, Chairman, Subcommittee on Oversight 
      and Investigations, Committee on Veterans' Affairs, to Hon. 
      James B. Peake, M.D., Secretary, U.S. Department of 
      Veterans Affairs, letter dated September 24, 2008, and VA 
      responses..................................................    44


                      MEDIA OUTREACH TO VETERANS: 
                               AN UPDATE

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 2247, Rayburn House Office Building, Hon. Harry E. 
Mitchell [Chairman of the Subcommittee] presiding.
    Present: Representatives Mitchell and Space.

             OPENING STATEMENT OF CHAIRMAN MITCHELL

    Mr. Mitchell. Good morning, and welcome to the House 
Veterans' Affairs Subcommittee on Oversight and Investigations 
hearing. This is a hearing on media outreach to veterans, an 
update, September 23, 2008. This hearing will come to order.
    Today, we are following up on the U.S. Department of 
Veterans Affairs (VA) outreach efforts. If, by the VA's own 
estimate, only 7.7 million of America's 25 million veterans are 
currently enrolled and receiving benefits, how are we bringing 
the VA to the remaining 17 million veterans?
    Waiting for veterans to show up to the VA is neither 
effective nor acceptable. The VA must be proactive.
    We will be hearing from veterans about the perception of 
the VA's pilot public awareness campaign in Washington, DC, to 
promote the suicide hotline and VA mental health services. We 
are honored to have them here today.
    We will also hear from the marketing firm of MDB 
Communications about the best practices for reaching consumers.
    Finally, the VA will update us on the status of the pilot 
public awareness campaign and its plans for expansion in 
conjunction with a national outreach strategy.
    On July 15th, this Subcommittee heard testimony on the 
creation of an outreach strategy to alert veterans and their 
families where they can turn for help. In the hearing, 
marketing experts encouraged the VA to conduct thorough market 
research before executing an advertising campaign, emphasizing 
the need for a strategic plan with a market tested message and 
with measurable objectives that focus on veterans' needs.
    We also heard from the VA's Assistant Secretary for Public 
and Intergovernmental Affairs, Lisette Mondello, about the 
Department's outreach plans, specifically the 3-month pilot 
campaign to promote VA's suicide hotline in Washington, DC.
    Today Assistant Secretary Mondello will update us on the 
status of the pilot project, which is scheduled to conclude 
next month.
    Based on initial results, the VA's stated intent was to 
expand the program. We look forward to hearing how VA plans to 
do this and how the VA can maximize effectiveness.
    After hearing about the importance of a well-researched, 
comprehensive, targeted outreach strategy in the July 15th 
hearing, we also look forward to hearing what recent progress 
has been made in procuring the necessary marketing research 
expertise to help VA develop and refine its national outreach 
strategy.
    Additionally, in the July 15th hearing, a public service 
announcement (PSA) featuring Gary Sinise was shown. I am 
curious to learn today why it was not distributed to television 
stations in the Washington, DC, area as part of the DC-based 
pilot public awareness campaign so the VA could gain additional 
feedback.
    It is now my understanding based on what the VA has told 
our Subcommittee staff that the VA plans to award a contract 
next week to distribute this public service announcement 
nationwide.
    If the subsequent market research concludes that it is not 
an effective outreach tool, I want to know what the VA will be 
able to make of the necessary adjustments and that this one PSA 
will not be distributed as a substitute for thoroughly market 
tested messages in the future.
    I am also eager to learn how the VA will be tracking the 
use of this public service announcement by television stations 
and whether it is proving effective.
    Finally, I look forward to hearing more about the VA's 
potential use of paid advertising at movie theaters nationwide 
to show the Gary Sinise public service announcement.
    In response to a post-hearing question from our July 
hearing, Ms. Mondello suggested the VA is considering this as 
an option. This is certainly innovative and if this is the best 
way to reach veterans at risk for suicide and let them know 
where they can turn for help, then I am all for it. The only 
question is, is it the best method?
    But first we will hear from four veterans who live in the 
Washington, DC, area, who have been exposed to the pilot public 
awareness campaign. I am eager to hear their impressions of 
this campaign and I trust their input will be useful to the VA 
as well.
    We will also hear from Ms. Cary Hatch, President and Chief 
Executive Officer of MDB Communications. I expect that her 
testimony will enlighten all of us on the requirements and 
potential pitfalls of launching an effective national 
advertising campaign.
    I want to thank all of our witnesses for coming to testify 
before the Subcommittee today. The fact that we are holding 
this hearing, the second this year to focus on media outreach, 
should make clear the importance of this issue. And we look 
forward to your testimony.
    Before I recognize the Ranking Member for her remarks, I 
would like to swear in our witnesses. I ask that all witnesses, 
please stand and raise their right hand.
    [Witnesses sworn.]
    [The prepared statement of Chairman Mitchell appears on
p. 30.]
    Mr. Mitchell. Thank you.
    I ask unanimous consent that all Members have five 
legislative days to submit a statement for the record. Hearing 
no objection, so ordered.
    The first panel, at this time, I would like to recognize 
Mr. Brian Hawthorne, a veteran of Operation Iraqi Freedom 
(OIF); Mr. Wade Spann, also a veteran of Operation Iraqi 
Freedom; Ms. Carolyn Schapper, our third OIF veteran; and Mr. 
Rick Weidman, Executive Director of Policy and Government 
Affairs for the Vietnam Veterans of America (VVA) as well as a 
Vietnam vet.
    I thank all of you for coming and I thank you for your 
service to our country. Would you please come to the table.
    And I ask all of our witnesses to stay within the 5 minutes 
of their opening statements and your full statement will be 
submitted for the record.
    And we will begin with Mr. Hawthorne, if you do not mind, 
and then we will just go on down the table.

 STATEMENTS OF BRIAN HAWTHORNE, WASHINGTON, DC (OIF VETERAN); 
WADE J. SPANN, WASHINGTON, DC (OIF VETERAN); CAROLYN SCHAPPER, 
 REPRESENTATIVE, IRAQ AND AFGHANISTAN VETERANS OF AMERICA (OIF 
VETERAN); AND RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY 
      AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

                  STATEMENT OF BRIAN HAWTHORNE

    Mr. Hawthorne. Good morning, Chairman Mitchell and the 
other Members of this distinguished Subcommittee. I truly 
appreciate the privilege of your time to offer my perspective 
on veterans' health and suicide prevention.
    My name is Brian Hawthorne. I am currently serving as an 
Army Reservist while I attend George Washington University here 
in DC.
    I am a combat medic in the military and served two tours in 
Iraq, most recent as part of the surge in Baghdad. I returned 
to U.S. soil on Memorial Day of this year after ten difficult 
months.
    As a medic, I am responsible and intimately connected to 
the health and well-being of the soldiers in my unit, which is 
increasingly revolving around mental health.
    The Army has begun placing much greater emphasis on the 
mental health of its soldiers with the assignment of combat 
stress teams on most bases in theater and many more required 
hours of training and briefings for Commanders, medics, and 
soldiers alike.
    These efforts have paid great dividends in reducing the 
stigma associated with mental healthcare and I believe that 
leadership at all levels is now much more available and able to 
identify soldiers at risk for this condition.
    This not only enhances the level of care available to most 
soldiers in theater, but it is encouraging the efforts across 
the military to reduce these stigmas.
    Obviously, however, this fight does not stop upon leaving 
the battlefield. Even more important than the availability of 
mental healthcare in theater is the availability and usage of 
such care at home.
    There are some key differences between these environments, 
however, that I would like to outline for you.
    In country, your average servicemember has daily 
interactions with their chain of command as well as with their 
peers who are experiencing essentially the same stresses. 
Therefore, it is significantly easier for an aware leader to be 
able to identify at risk individuals by comparing how he or she 
is handling their stress compared to everyone else.
    Along these same lines, it is much easier for a healthcare 
provider or Commander to track the development of a condition 
over the course of a tour because for the most part, everyone 
entered theater at the same time and, therefore, their exposure 
to trauma and stress is equal.
    In these conflicts, especially at this phase, when the 
theaters are so mature and rich with resources, servicemembers 
have many more stimuli affecting their stress levels than ever 
before. It is not uncommon to have soldiers talking to their 
family or friends hours or even minutes before leaving the wire 
on a combat patrol.
    Now, imagine for a moment if that short, albeit critical, 
conversation does not end well for that servicemember, be it a 
fight with a spouse, a sick child, a sudden or unexpected 
expense, or just tension on the other line. That soldier now 
has significantly more on his or her mind than their peers, yet 
still must be able to handle the same stresses of their 
mission.
    I am not a psychologist, but I can say from experience that 
stresses from home can significantly amplify the stress in 
combat.
    Upon redeployment, homecoming experiences run the gamut 
from good to bad. For the most part, excitement of reuniting 
with families and the real world takes precedence over all else 
and whatever issues that servicemember was facing are pushed 
down.
    As we now know, this is not only unproductive, but it is 
normal. The mantra of what happens in Vegas stays in Vegas does 
not apply here, yet many servicemembers wish it did. Maybe they 
think their buddies do not want to talk about it anymore or 
that their families or friends just would not understand. But 
for the most part in those first few weeks, elation and relief 
is perceived for progress and a cure.
    The veteran selects middle of the road answers on a mental 
health survey and is released from the out-processing center. 
In most units, this is the time when most issues begin to 
occur. A family or a lifestyle is not as he remembered and he 
no longer has his battle buddies around to talk to, to keep 
track of him. He may have had a few months off now with a 
regular paycheck and no one accountable for him.
    As a Reservist with multiple tours, I had almost 70 days of 
leave accrued which was kindly tacked on to the end of my tour 
as part of my terminal leave. During this time, I reached out 
to my families and friends and a few battle buddies from the 
tour. However, at no time did anyone from my chain of command 
or the VA contact me to see how I was doing.
    The rationale for this, at least in my experience, soldiers 
do not want to be bothered with Army visits during this time, 
so they are not.
    During these months, however, other soldiers reached out to 
me even though we were off duty and in some cases not in the 
same unit or even the same country. My guys from down range 
still felt comfortable calling Doc Hawthorne and to chat about 
what was going on as they had while we were in Iraq.
    Mostly they want to know what normal was. Should I be 
having trouble sleeping still? Is three beers a night too much? 
I have flashbacks. What do I do? And so forth.
    As I said, I am not a psychologist. I know the limits of my 
capabilities. I would help as I could, but mostly I referred 
them to Military OneSource which was heavily advertised to us 
both down range and during our post-deployment briefings.
    For the most part, they received outstanding treatment from 
the system there, continued to see one of their assigned 
therapists with great success. The question then becomes, hence 
this hearing, what of the veterans who do not have a doc, who 
do not know about Military OneSource, or are not eligible for 
its services? What about the family member who has concern 
about their recently returned veteran?
    That, I believe, is where the VA suicide hotline plays the 
most important role. By advertising its availability and 
convenience, not only where the veterans are, but where their 
families are, by making this service public knowledge, we are 
infinitely increasing the likelihood that a veteran will end up 
using it either through his own discovery or peer pressure of a 
concerned family member or friend. If this is indeed our 
objective, then there should be no limit to the creativity 
applied to its distribution. While it could be argued that a 
veteran is not likely to be sitting at home at noon on a 
Tuesday watching soap operas, it is very possible that his 
mother or grandmother could be and having had just the 
conversation with him on his difficulties had been empowered 
with information that could save his life.
    At the other end of the spectrum, his or her teenager may 
not be able to fully understand what their parent has been 
through, but understand they are different now. While soap 
operas may not be the medium to reach this demographic, but 
certainly ads on arenas such as Facebook, MySpace, Google, et 
cetera, can register enough with them to prompt a conversation 
or intervention. We cannot afford to forget the influence of 
such mediums.
    To speak specifically on the ads that are currently running 
in DC, I would like to make the following comments.
    First, it is imperative to emphasize the confidentiality of 
such services. Bearing in mind that many veterans are still in 
some kind of Government service or in the military, career 
progression is a major consideration when seeking help.
    I personally know soldiers who refrain from seeking any 
sort of official mental healthcare due to the fact they do not 
want a black mark in their record. This is not an official or 
institutional issue. This is a personal one and that in the 
military, we promote in our own image.
    Take, for example, a friend of mine who is a young infantry 
platoon leader. He served in Iraq and comes home and wants to 
seek mental health. How likely is his unit to send him to an 
arduous course such as ranger school after seeing he struggled 
with combat stress? What about when he is up for promotion to 
Major or eligible for Battalion Command? Are officers on his 
board likely to give him that command with his history of 
mental health issues? We must allow this soldier the 
opportunity to talk through some of these issues without 
hurting their career opportunities down the road. And I believe 
the VA is the agency for that.
    Secondly, the strength of a warrior quote, is an excellent 
one, and I agree with it wholeheartedly. However, I believe it 
is limited to the Army and Marine Corps and does little to 
reach out to our water and skyborne brethren. We cannot afford 
to have this service seem exclusive in the least.
    In closing, I would like to reemphasize the fact that the 
military is currently making great strides in caring for the 
mental health of our servicemembers while they are deployed and 
when they return home. There is still much to be done, 
especially for Guard and Reservists.
    And between the 2 years of my demobilizations, the 
difference was night and day. I would highly recommend 
collaboration with Military OneSource and other such services 
for best practice.
    Second, these initial efforts of advertisements are to be 
commended. And I would like to ask the VA to expand on these 
initiatives for all their benefits, particularly education and 
the new GI Bill.
    What often keeps a veteran from achieving their full 
potential with earned benefits is sadly just ignorance of their 
entitlements. Again, it may be an observant family member or 
friend that sees an ad. It can drastically improve the life of 
one of our Nation's heroes.
    Thank you for your time and for your service to our 
veterans and their families. I welcome the opportunity to 
answer your questions, sir.
    [The prepared statement of Mr. Hawthorne appears on p. 31.]
    Mr. Mitchell. Thank you.
    Mr. Spann.

                   STATEMENT OF WADE J. SPANN

    Mr. Spann. Chairman Mitchell, my name is Wade Spann and I 
am honored to be here today. I speak about my experience as a 
combat-wounded veteran.
    I would like to take the opportunity to thank the VA in 
helping with my transition from the Marine Corps to academic 
life.
    I joined the United States Marine Corps in August 2001. I 
fought alongside my brothers in the 1st Battalion, 5th Marine 
Regiment. As an infantryman, I did three separate and distinct 
tours. The first was the push to Baghdad. The second was in 
Fallujah and my third was Al Ramadi.
    In June 2004, while on my second tour in support of 
Operation Iraqi Freedom, four of my fellow Marines and I were 
wounded by an improvised explosive device (IED) attack in our 
Humvee. I wish I could speak about this incident in detail, but 
my injuries and the loss of consciousness prevent me from 
remembering a whole lot.
    The following year in March 2005, I returned to Iraq with 
one five. This time to Al Ramadi, Iraq. During this point, I 
reached the end of my obligated tour of duty and returned home 
in June of 2005.
    Upon returning from Iraq, I participated in the mandatory 
separation classes. These classes made an attempt to explain to 
me all the veterans' benefits that I was entitled to and 
available, but it was difficult to fully understand.
    There was a great deal of paper that needed to be sent and 
people who needed to be contacted. Accomplishing this while 
simultaneously preparing to move across the country presented a 
significant obstacle.
    On August 6th, 2005, I finally said my farewells and 
started a new chapter in my life. The change from the Marine 
Corps to an academic environment was filled with frustration, 
miscommunication, and a sense of feeling out of place. To be 
honest, I felt more comfortable in Iraq than in a classroom.
    Only a few short weeks after my discharge from active duty, 
I began my first college classes and quickly learned that my 
injuries I suffered in Iraq were complicating my transition 
into student life.
    The short-term memory loss that I suffered was a direct 
result of my head wounds in Iraq. Having this dramatic effect 
on ability to retain information, I was going to need everyday 
assistance from professors and tutors in order to succeed in 
academic life.
    Although George Washington University and major colleges 
and universities do not offer transition programs for veterans, 
I was lucky because my injuries qualified me for disability 
student support.
    With an established infrastructure for providing services 
and information, it seems only natural that VA should take the 
opportunity to partner with schools and to assist educating 
veterans on benefits available to them.
    Through educating one veteran about the benefits available 
to them, many more can be reached. There were numerous times 
when I learned of a benefit or other service available to me 
through word of mouth. A great deal of my knowledge about my 
entitlements and disability benefits has come from listening to 
other veterans who have already gone down this process.
    For instance, I would have been unable to attend George 
Washington University had I not learned about the VA Chapter 31 
benefit.
    Vocational rehabilitation. It was not easy to get approval 
for this benefit of vocational rehab. It is the only reason I 
am able to attend such a prestigious institution.
    When I informed a fellow Marine that he could qualify for 
the same Chapter 31 benefit and return to Pepperdine University 
and finish his degree he had started prior to enlistment, he 
was amazed.
    The word of mouth is a powerful thing, but it should not be 
the primary nor the most successful way to disseminate 
information about veterans' benefits. An effort must be made to 
better disseminate the information to veterans about the 
services available to them.
    These are benefits and services that have been earned in a 
very real, painful, and sometimes life-changing way. Whether by 
way of a more sophisticated Web site, through an intense e-mail 
campaign, or by some other method, information about the 
services must get to the people who have earned and deserve 
them.
    Now that you have heard my experiences of transition out of 
the military and into an academic environment, I want to speak 
about the main reason I came here today.
    As everyone is well aware, there is a brotherhood formed 
when men are in combat. It has been over 3 years since my 
platoon turned in our weapons, dropped our packs, and took off 
our body armor, yet we continue to suffer casualties.
    On July 31st of this year, I received word from my best 
friend, Gunnery Sergeant Timothy Cyparski, that a member of our 
platoon, Timothy Nelson, had taken his life. Corporal Nelson 
was an ideal Marine. He took on diversity, followed orders, 
respected authority, and was a relief during trying times. I 
had not spoken to Nelson since I got out, but the news shook me 
to my core.
    That week, I talked to Gunnery Sergeant Cyparski regularly 
for support and just to find answers. Corporal Nelson's death 
had brought a lot of the guys from the platoon back together 
and persuaded me to call guys I had not talked to in years.
    From talking to the other Marines in the platoon, I learned 
that Corporal Nelson had been recalled, was preparing to honor 
his country, called back to duty. Following his medical 
physical, he was disqualified from returning to duty because he 
had previously been diagnosed with Post Traumatic Stress 
Disorder (PTSD). This among other several factors was a 
significant contributor to his tragic death.
    Gunnery Sergeant Cyparski flew to Washington State to help 
Corporal Nelson's newlywed wife and grieving family. He wanted 
to show that Corporal Nelson was, and always will be, a brother 
in our platoon and that we would always keep him in our hearts.
    Only a week after Gunnery Sergeant Cyparski flew out to 
Washington, I received the most devastating news imaginable. My 
best friend and my mentor, Gunnery Sergeant Timothy Cyparski, 
had taken his own life, leaving behind his wife and two 
beautiful young children.
    The news hit us hard within the company and many Marines 
came together searching for answers to why we lost 2 brothers 
in 2 weeks. To me, Gunnery Sergeant Cyparski was the greatest 
Marine infantryman imaginable and he was a role model to all of 
us.
    A Purple Heart recipient, he was injured by the same IED 
explosion that I was. The injuries Gunnery Sergeant Cyparski 
received that day only truly manifested themselves 3 years 
after the event, at the beginning of this year. His Traumatic 
Brain Injury (TBI), diagnosed as a hematoma deep inside the 
right hemisphere of his brain, began causing him significant 
cognitive issues and memory loss. This caused Gunnery Sergeant 
Cyparski to be assigned to a limited duty and the Wounded 
Warrior Program as he pursued medical treatment.
    Gunnery Sergeant Cyparski had also been awarded two Bronze 
Stars for valor in combat. These awards, though significant, do 
little to illustrate the full measure of a man who was so 
admired and respected by everyone who met him and worked with 
him. To me, he was a great influence and I base much of my 
success in school to his encouragement. We constantly talked 
and I asked him for advice and guidance.
    That being said, Gunnery Sergeant Cyparski did suffer from 
the effects of war and he had difficulties dealing with 
physical and psychological. However, he was proactive in 
seeking treatment and hoped to one day finish an academic 
degree to better provide for his family.
    I consider Corporal Nelson and Gunnery Sergeant Cyparski to 
be combat casualties. Their deaths were a direct result of 
their combat duty and this great Nation lost two outstanding 
heroes that can never be replaced. For this loss, our great 
country is a little weaker now.
    In the past month, I have spent a great deal of time 
reflecting on these events and what could have been done to 
save these two young Marines who had so much to look forward 
to.
    Through this reflection, I have found that there is no 
single absolute correct answer because each individual needs a 
different approach and different solutions. However, there are 
clear signs and similarities in a majority of these cases.
    For Corporal Nelson and Gunnery Sergeant Cyparski, their 
similarities began with their diagnosis of PTSD. And this 
diagnosis led both to be disqualified from serving their 
country as Marine infantrymen. Being an infantryman was what 
they had signed up to be in the Marines and it was their 
passion.
    In addition, both were given difficult to adjust 
medications as treatment for PTSD following their doctors' 
advice.
    Through my observations and experience, I have come to the 
conclusion that there needs to be a strong network of friends 
and family they are going to educate on the signs and symptoms 
of both PTSD and TBI. Obviously families are more easily 
accessible than friends. However, if you consider friends being 
members of their respective military unit, others in the 
military, and those who served with them, they are more likely 
to be accessible to VA outreach and more likely to recognize a 
problem and an issue.
    Another aspect that needs to be addressed is seeking 
treatment is confidential and their cases will not be disclosed 
to anyone or threaten future job opportunities. I know the 
stigma associated with PTSD is not easily altered, but there 
are steps that can be taken to educate veterans and our society 
as a whole about this seeming epidemic.
    Accessibility to VA's resources should reflect an emerging 
demographic of veterans. Problems need to be addressed and new 
outlets need to be explored. The majority of recent veterans 
are a young, technologically savvy generation and we depend on 
online mediums for information. The VA needs to make their Web 
site more user friendly and benefits easier to understand, with 
resources available either by electronic chat services or by 
phone. As it stands now, I still have trouble comprehending it.
    A case manager to coordinate appointments and discuss 
benefits with each individual would be ideal. The small details 
and the upscale programs that the VA offers need to be divulged 
to the veteran rather than the individual having to rely on 
their own investigative skills.
    I have great hope for the VA that it will be able to carry 
its message regarding PTSD and TBI to a larger audience of 
veterans and their families. It needs to utilize the very best 
America has to offer in technology and media in order to 
increase veteran awareness on what has the potential to become 
a true epidemic if continued unresolved.
    If the Army and Marine Corps can sponsor commercials at 
halftime shows, I am sure the VA can equally do a good job 
putting the word out during these same time slots and to those 
same viewers.
    We also utilize social networking sites like MySpace and 
Facebook. In fact, this is one of the easiest ways for me to 
stay in contact with my brothers in the Marine Corps. These 
networks make it effortless to contact one another and there 
are support initiatives that could easily be utilized for 
veterans and their families.
    In a more expansive effort, the VA could invest in its own 
social networking sites allowing veterans to join these groups 
specific to their unit. This would enable them to maintain 
contact with their fellow servicemembers, their primary source 
of support for all combat trauma-related issues, or providing a 
form for easy dissemination of relevant information from the 
VA.
    Several veteran groups from individual units have tried to 
do this with some success, but detachment from the VA's 
information and services data and prohibitive startup costs 
have handicapped the true potential of such sites.
    An additional network that the VA could utilize or perhaps 
organize is the veteran nonprofit community. Americans have 
always been generous and grateful to its veterans. This is 
demonstrated through the many organizations and individuals who 
have donated time and money to assist us. However, there is no 
defined coalition that ensures these services are not 
duplicating and that veterans know how to utilize these 
services.
    A veteran will not ask for something if he does not know it 
exists or where to go to receive it.
    I came here today for action. PTSD and TBI are very real 
afflictions facing an unknown number of veterans today. The 
nature of these injuries means that the true number of these 
affected may never be known. The type of combat we have been or 
are currently engaged in ensures the numbers will be large.
    Preparations must be made now for what unfortunately may 
prove to be the most significant long-term maladies suffered by 
this generation of servicemembers.
    Getting information to us first is the most important step 
to preventing a tragedy that has already befallen too many of 
my brothers. I know that being here today will not change the 
fact that my two brothers will never return. However, if 
speaking to you in this room can do anything to prevent one of 
my fellow brothers from going down that same path, I will have 
done my part.
    I know the VA is aware of the media outreach. It is a 
necessity in order to inform veterans and the resources. It 
must happen now. This is a situation where oversaturation of 
the message is not possible.
    I ask America's leaders to unite under a solid commitment 
and do whatever it takes to end these unnecessary losses. 
Corporal Nelson, Gunnery Sergeant Cyparski, and all veterans 
made a solemn oath to defend you and this Nation. Please do the 
same for us.
    [The prepared statement of Mr. Spann appears on p. 33.]
    Mr. Mitchell. Thank you.
    Ms. Schapper.

                 STATEMENT OF CAROLYN SCHAPPER

    Ms. Schapper. Good morning, Mr. Chairman, Members of the 
Subcommittee. Thank you for the opportunity to testify today on 
the VA's first efforts at media outreach to veterans of Iraq 
and Afghanistan.
    As an Iraq veteran, I know well the importance of VA's 
outreach. As a member of the Army National Guard, I served in 
Iraq from October 2005 to September 2006. I was a member of a 
military intelligence team that went out on over 200 combat 
patrols. My team and I experienced IEDs, mortar fire, and 
sniper fire.
    When I came home, I began to deal with a wide range of 
adjustment issues including anger, isolation, increased 
drinking, nightmares, and hypervigilance. My symptoms altered 
and grew over time. I knew I was not the person I used to be.
    I suspected I might have PTSD, but I had no way to figure 
it out. I started to look online for factors for war veterans 
and PTSD, but nothing spoke to me as an Iraq veteran. I even 
looked at the VA's Web site and I did not find anything on 
there that was helpful.
    Fortunately, I ran into another vet who had gone to a Vet 
Center and asked for help. So I, too, went to a Vet Center that 
helped me start going through the maze that is the Veterans 
Affairs Administration.
    The best way to describe PTSD is feeling like you are in 
the bottom of a dark hole and that you are lost and 
disconnected. When you feel this way, it is very hard to pull 
yourself out of that hole and to start going to the VA and 
figuring out who you need to talk to.
    So when I saw the posters in the Metro recently, I was very 
excited because I could have used this 2 years ago. If I had 
known there was a hotline I could call, I would have been all 
over it.
    However, one of my questions about the posters is, they are 
great for DC metro area, but how do we reach out to the people 
in rural areas that do not have buses and subways?
    Also, the phone number on the poster, unless you are 
sitting right next to it, you cannot really see it. And if 
someone thinks they are dealing with mental health problems, 
they are not going to want to walk up to a public poster and 
start writing down a phone number. So I just recommend 
something as simple as making the phone number bigger.
    Something that has been done well is I read a copy of the 
letter the VA is apparently sending out in conjunction with 
this campaign that outlines several of the symptoms I described 
previously. The letter is good and comprehensive, but I ask who 
and who is not receiving it as I personally have not received 
it.
    Before being asked to testify, I had not come across the 
public service announcement with Gary Sinise, so I think it is 
a great announced PSA. However, it only focuses on suicide. I 
took the time to call the number myself to find out about the 
hotline. It is also for anybody suffering from any symptoms of 
PTSD, even their family members that have concerns.
    If a message is just focusing on suicide, it is too little 
too late. If you can hit PTSD symptoms before they get to the 
point of suicide, that is when people can really be helped.
    However, a lot of soldiers, Marines, airmen, sailors are 
just going to suck it up. If they think it is just for people 
who have suicidal thoughts, they are not going to call it. They 
are going to be like I came home with all my body parts, I am 
okay. I can handle this. Again, we do not want to wait until 
they get to suicidal tendencies before they call that hotline.
    I think a lot of these problems could be solved if the VA 
did more testing of ads before they rolled them out including 
more focus groups and taking the suggestion of online social 
networking sites, Army Times, anything that can be found in the 
Post Exchange (PX) that a soldier can buy.
    In my spare time, I am also representative for Iraq and 
Afghanistan Veterans of America. We are one of the largest 
nonpartisan Iraq and Afghanistan veterans groups in America and 
we are also working on a public service announcement partnered 
with the Ad Council to conduct a multi-year PSA campaign to 
reduce the stigma surrounding mental healthcare and to ensure 
veterans seeking access to care and benefits, and particularly 
those who need treatment for their psychological injuries. But 
we alone cannot do it. The VA needs to do it because they are 
ultimately the ones that can provide services.
    So our PSA campaign will in no way eliminate the need for 
the VA to plan its own outreach and advertising campaign. Only 
a concerted effort on the part of the VA will ensure that 
veterans finally have easy access to the many benefits the VA 
has to offer.
    Thank you for your time.
    [The prepared statement of Ms. Schapper appears on p. 36.]
    Mr. Mitchell. Thank you.
    Mr. Weidman.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Thank you, Mr. Chairman, for your leadership 
in holding this hearing and the previous hearings that led to 
this today. We appreciate it from Vietnam Veterans of America.
    And it is not just a question of media. The media really 
emanates from a communication strategy. And the communication 
strategy has to begin with your governance strategy and your 
decisions about how you are going to interact with the people 
whom you serve. If you were in private business, it would be 
how you are going to interact with your customer and then how 
you are going to do business. And then from that emanates your 
communication strategy that has to be of a whole.
    VA is doing a lot of stuff, but it is not very well 
coordinated nor does it grow organically from the way in which 
they practice medicine within the VA itself. All too often it 
is stuff on the side in response to outside pressure.
    A lot of it has to do with credibility. You heard people to 
my right, these fine young people who served in OIF, talk about 
that a veteran will believe another veteran before they will 
believe anything in a shiny brochure or a PSA. And that is 
accurate. The question is, how do you start the chain going 
where one veteran is convinced and passes it on to another and 
how do you reach enough veterans in order to do that.
    The first thing you have to do is develop credibility. 
Vietnam veterans and the VA have had a rocky history since we 
came home some 40 years ago. One could put a diplomatic face on 
it, but basically we were lied to over and over again and not 
welcomed at the VA.
    And the founding principle of Vietnam Veterans of America 
is, and we still remain true to that, never again shall one 
generation of American veterans abandon another. That 
credibility or lack of credibility that the VA has still with 
many Vietnam veterans is not faced by as many OIF and Operation 
Enduring Freedom (OEF) veterans. However, I know young people 
who do not have the same faith in the Marine Corps or the 
military that these young people have talked about this morning 
nor do they have the same faith in the VA.
    So the first thing is that you have to look at and start 
telling people the unvarnished truth. I will tell a vignette if 
I may digress a moment.
    Fifteen years ago, someone who should have had better 
judgment invited me down when I was working for Governor Cuomo 
in New York to interview for the Deputy Assistant Secretary for 
Public Information. Everybody who knows me started to laugh and 
said, Weidman, you are the anti-flack, no way that you could 
fulfill that position. Ultimately they hired somebody much more 
qualified for what they wanted, Jim Holly, who is terrific, did 
well in the position from their point of view.
    But in that, I was watching come down while the young lady 
who was the Assistant Secretary, it was the same day that the 
first announcement leaked that there had been veterans exposed 
to ionizing radiation, and so she was on the phone back and 
forth with Didi Myers at the White House, with Hazel O'Leary's 
office over at Energy, et cetera. And the line then was we 
think a few dozen veterans may have been exposed.
    And so I listened to all of this and then finally she turns 
to me and while she has the phone on hold, she covers the 
receiver and says, Mr. Weidman, really what we want to do here, 
Rick, is restore credibility with the veterans community, what 
are the first three things you do?
    And I said, well, the first thing is the most important 
thing is I would stop lying to veterans. She looked at me, hung 
up the phone, and said what do you mean. I said you do not even 
know you are lying to them. I will tell you right now, it will 
not be a couple a dozen, but you will change your story about 
the end of the week and it will be a couple a hundred. Next 
week it will be a couple a thousand. And before this is all 
done, my guess is that we are going to be talking about six 
figures. And, in fact, that turned out to be prescient.
    But instead of saying from the outset we do not know how 
many have been exposed, but by God, we are going to find them 
all, we are going to provide the healthcare that they are due 
and we are going to provide the benefits that they have earned 
by virtue of being injured, they took exactly the opposite tact 
and tried to minimize everything and say everything is okay, it 
never happened.
    That has been traditionally and still remains today VA's 
first response no matter what it is. There is no suicide 
epidemic. There is no major problem. We are on top of it. And 
it does not matter whether it is physiological or 
neuropsychiatric.
    You have to change that attitude and the attitude begins in 
your attitude toward the individual whom you are seeing of 
taking the veteran as your full partner in his or her health 
overall and the veterans community.
    I want to compliment Dr. Vic Nowabi and the whole suicide 
thing, but the problem is, is that he is laboring under that is 
one part of VA over here and it is not going organically and 
emanating from the Under Secretary's and the Secretary's Office 
as a piece of the governance structure as an overall 
communication strategy so that many of your materials even do 
not look alike.
    Now, we are small and poor and we are struggling hard to 
get a better look. These are our three most effective brochures 
that begin with a service ribbon. If you have this, check and 
see if you have diabetes or prostate cancer or these other 
things. And this one in particular, we cannot keep in stock. 
And we are dropping back now and reviewing our whole process to 
get a much more coordinated strategy with folks and to work 
through the private sector.
    Eighty percent of vets, it is a slightly higher proportion 
among the young vets, but 80 percent of vets do not go anywhere 
near the VA. Only about 15 to 20 percent use the VA. And the 
same is true, it is a slightly higher proportion of the young 
vets use the VA.
    So most of them are going to go to the private sector, so 
you have to work through the media and you have to work through 
the civilian medical establishment and how do you educate the 
public and how do you educate the providers who in turn will 
educate the public and those individual veterans who do not go 
anywhere near the VA.
    And there is no overall communication strategy that is 
trying to reach out and educate folks as to what are the 
wounds, maladies, illnesses, and conditions that are endemic to 
military service depending on branch of service, when did you 
serve, where did you serve, what was your military occupational 
specialty or military job, and what actually happened to you.
    And that is the crux of the issue and that can only emanate 
from the top down beginning with the Secretary ensuring that 
all of his or her hopefully in the future lieutenants have the 
message and the same thing and work to change the corporate 
culture that is always deny, deny, deny, everything is fine, to 
one of we are going to openly and cooperatively with the rest 
of America address something that is not a veteran's problem 
but is an American problem which is the health of our returned 
warriors of every generation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Weidman appears on p. 37.]
    Mr. Mitchell. Thank you.
    First, I want to thank all of you for your service to our 
country. It is terrific.
    And I want to ask Mr. Weidman, first of all, I have a 
general impression that veterans from the Vietnam era will best 
be reached in ways much different than the OEF and OIF era.
    What do you think would be the best way to communicate with 
Vietnam veterans?
    Mr. Weidman. Well, we are a more skeptical bunch because we 
have been burned more often. And, frankly, the VA today is, in 
fact, much better than when we came home. And we would like to 
think that those of us who are Vietnam vets, whether in 
Veterans Benefits Administration (VBA) or not, have had 
something to do with that different attitude on the part of 
society.
    Most people, just the average citizen, is determined not to 
have happen to these young people what the country did to 
Vietnam vets when we came home. It was not just what happened 
in combat, but when we came home.
    So what sets us differently than the other folks? I think 
the Vietnam vets, because we are more skeptical, you have to 
approach us in a different way. And that different way is, 
number one, changing the way in which you do business at the 
VA. You can have all the slick ads in the world about telling 
other Vietnam vets that the VA is today not what it was in 1977 
or 1975 and it is only from another vet that they will believe 
that.
    So how do you reach more of those other vets? And we would 
suggest that going through the medical societies and going 
through the disease groups and to reach to the civilian medical 
establishment is probably the most credible way of convincing 
folks. We have become convinced of that.
    VA is supposed to be doing that. We have despaired of them 
taking a military history. We have despaired of them even using 
the veterans health initiative curricula and the wounds and 
maladies of war. Therefore, we have on our own started a 
private effort, sir, working with the major medical societies 
and with the disease groups in order to do that kind of 
consistent outreach and education with the goal of improving 
veterans' health, not just healthcare, veterans' health through 
education and advocacy.
    Mr. Mitchell. Thank you.
    And to Brian, Wade, and Carolyn, let me ask you. You know, 
looking through all of your written testimony, you have 
mentioned things like networking through Web sites like 
Facebook and MySpace, is ideal for reaching out to veterans.
    What kind of information would you want to know in that 
initial snapshot, whom to call, what Web site to visit, what 
benefits are available? For you three and other veterans you 
know, what is the most pressing question the VA could answer in 
a quick online advertisement?
    And any of you could answer.
    Mr. Hawthorne. Sir, I would say that in a flash, you need 
to provide what services are available, so not just suicide 
hotline, but also, as we have mentioned, general mental health 
counseling and, if possible, absolutely the statement of 
confidentiality and the fact that it does not have to be a 
commitment.
    And when we go to the VA, we do not want to necessarily 
commit to a year of therapy. Maybe we want an hour-long 
conversation. And so the statements of what kind of care is 
available, how to contact, and the fact that it is confidential 
should absolutely be on that first flash.
    Ms. Schapper. The ad that is currently running in the 
Metro, I think, says it all for me personally. I think if you 
just simply had that ad on the online advertising, it would 
work because it says any emotional problems or disorders or 
anything you are experiencing, just call this number. And that 
number definitely can help you.
    Mr. Spann. What I would say about this ad put online, 
definitely needs to be changed. We want to include suicide. 
Suicide is big for me, but also the benefits that veterans are 
entitled to, not just suicide, but also, you know, VA home 
loan, GI benefits.
    A lot of people do not know about the new GI Bill, you 
know, because they are outside of this region. And that is one 
of the big important things that I have been stressing to the 
veterans I talk to. They have not heard about it, and, yet, you 
know, everybody here is still carrying on as usual, but they 
know about the new GI Bill.
    As far as marketing, I am not a marketing guru, but I could 
say they could do something about this picture. I would say 
this does not really interest me if I saw it on the side. Do 
something that has some history to it or something that, you 
know, gets the emotions going. I think it would be a better 
point in case.
    Mr. Mitchell. Thank you.
    Mr. Space, do you have a comment or statement?
    Mr. Space. Thank you, Mr. Chairman.
    Ms. Schapper, I think you touched on this during your 
testimony. In rural America, you know, we do not have Metros, 
and we do not have subways. And, unfortunately, many of the 
people who live in rural America, especially those impoverished 
pockets that are out there, do not even have access to 
broadband or, therefore, the Internet, which, as I see it, puts 
those rural veterans at a considerable disadvantage when it 
comes to awareness and it puts the VA at a disadvantage in 
trying to reach them.
    I would be interested in any of your thoughts concerning 
some creative strategy, marketing strategies that might apply 
toward those living in impoverished rural America, which would 
be a considerable number.
    And I would also be interested in your perspective as to 
whether there are some things we can do outside of the 
traditional marketing and advertising venues, specifically the 
process of making the DD-214s, for example, available to all 
Veterans Service Offices within 30 days of a veteran's 
discharge so that they can engage in progressive outreach 
within the community.
    Our experience has been that a lot of times, we do not know 
these veterans are back and these veteran service organizations 
(VSOs) would like to reach out to them, more want to reach out 
to them, but simply do not have the means of identifying where 
they are or even that they are home.
    So I would be interested in your thoughts on both of those 
subjects.
    Ms. Schapper. Regarding the rural campaign, if the letter 
that I saw the prototype of online does get sent to everyone, 
that pretty much covers everything. So we just need to assure 
that every veteran that is returning gets that. But as you 
touched on, maybe they do not know who has returned and who has 
not. How do we overcome that? I do not know.
    I would have to think more about the idea of giving DD-214s 
to VSOs because it may have to be a timing thing because a lot 
of veterans may not even know they are suffering from anything, 
may not want to be contacted by an outside person within a 
month of coming home. They just want to chill out and be alone. 
I would say definitely targeting 6 months someone reaching out 
is definitely a good time period.
    Also, going back to the rural, I think they pointed out 
that if you did the PSAs during football games, that would 
reach a lot of veterans. So something like that or just, again, 
magazines that you can generally get in the PX like Army Times 
or any of those types of things.
    Mr. Weidman. Or during NASCAR races, they are going to 
reach a lot of vets in many parts of the country.
    Let me just mention that you do have to think about it 
differently if you are going to reach veterans in a rural area. 
And here's an example. VA has thousands of these sitting 
around. I mean, we are the biggest customer at VBA in turning 
around and giving these out.
    Now, most of those folks when they go back to a rural area, 
they are nowhere near a VA hospital. The best shot of reaching 
them is through the outreach of the VA Vet Centers. Demanding 
full staffing, increased staffing in existing Vet Centers in 
order to augment the teams for doing rural outreach. They 
already purchased the vans last year, so they are ready to do 
it, but they need the staff to do it, is demanding that they 
staff up there. It is not a quick process to staff up, but they 
can do it.
    But as an example, reaching through the medical community 
in rural areas to inform doctors of things like the diseases 
endemic to southwest Asia and how do you recognize that. It is 
important for neuropsychiatric reasons and health, but it is 
the whole health of the individual.
    It is not just PTSD today that is still killing and taking 
Vietnam veterans early or the physiological manifestations of 
PTSD. It is Agent Orange, and it is not going to be Agent 
Orange for the young people serving in Afghanistan and Iraq 
today, but it is going to be something else. I will guaran 
doggone tee you that it is going to be something else.
    And so as those things become clear, to do a complete 
epidemiological study becomes important, but that is not the 
subject here. It is how do you educate and reach those people 
in a rural area.
    And using the general media and talk shows and employing 
the veterans organizations in going on talk shows, they all get 
radio no matter where they live in America, and educating using 
those media in creative ways.
    Oftentimes they will not take a VA spokesperson, but they 
will take a veteran on a talk show.
    As to locating people when they come home, every State 
Director in all 50 States plus Puerto Rico, the District of 
Columbia, and the Pacific Islands receives that DD-214 when an 
individual ETSs or ends their term of service or when they are 
demobilized. So somebody gets it in your State, and it is the 
State Director.
    In small States, and there are a number of States where 
such things are happening, but in Connecticut, the State 
Director, it is small enough that Dr. Schwartz visits every 
single person who comes home. She is there for every homecoming 
and then makes sure that they reach out to the families, either 
the spouse or to the parents of every single person coming home 
whether wounded or not when they ETS.
    So someone in your State has that, and the first line of 
defense is the State Directors. However, they are not 
coordinated by and large with the VA because the VA, even 
though the State Directors want to work closely with VA for 
overall strategy and believe that they are the front line in 
terms of reaching these young people, VA has not played very 
well.
    Mr. Space. Well, our experience has been that there are 
confidentiality issues that those Directors at home are worried 
about breaching by providing that information to third parties, 
specifically the VSOs. And we are trying to figure out a way to 
break through that wall without compromising privacy issues 
that are associated with the veterans.
    Mr. Weidman. Forty years ago, and it still is under Title 
38, it was legal for the VSOs to contact people to inform them 
of their benefits. And the way in which that was done was a 
material package and paying for the mailing went to the VA and 
they mailed that package to the individual.
    And that is how the Disabled American Veterans (DAV) and 
Veterans of Foreign Wars got so big after Vietnam, particularly 
the DAV, because they had the money and the brains to follow 
through on it.
    Once the individual contacts the VSO, then the VSO can 
pursue it obviously from that point on. But there is no 
systematic effort that I know of to reach the young people all 
utilizing that mechanism, Mr. Space.
    Mr. Space. Thank you.
    Yes, sir.
    Mr. Hawthorne. Sir, on the DD-214, when you are discharged, 
the address that is on there is usually your current location. 
So if you are discharged from Fort Bragg, it is going to say 
something along the lines of Fayetteville, North Carolina.
    However, when you move, an e-mail address generally follows 
you. So if the DD-214 asked for a personal nonmilitary e-mail 
address, you could follow that young veteran. I cannot speak 
for the older generation. But for the young generation, we are 
going to follow our e-mail because that is how we keep track of 
our battle buddies, and that is how we look into people.
    So if the Government would collect our personal e-mail 
address. It is likely to not change. It can be a voluntary 
submission.
    Mr. Space. Sure. I think that is an excellent point.
    I want to thank you all for your service and certainly for 
your commitment and your time today.
    I yield back.
    Mr. Mitchell. Thank you.
    Mr. Wu.
    Mr. Wu. Chairman Mitchell, thank you very much for the 
accommodation for the questions for Ranking Member Brown-Waite.
    First of all, on behalf of Ms. Brown-Waite, I would like to 
thank all of you for your services.
    Brian, you have another Combat Medic Badge wearer probably 
a little more than twice your age, but you have something in 
common.
    Mr. Weidman. Three times, Colonel Wu.
    Mr. Wu. You know, and I know that your battle buddies 
considered you a doc and that is very important and that you 
have probably witnessed up close the horrors of war closer than 
most people in this room with some exceptions. We would applaud 
you on that.
    Wade, thank you. You should be very proud of your service, 
your Purple Heart.
    And, Carolyn, my dad was military intelligence, but I am 
not sure what the military intelligence team does when they go 
out on combat patrol. I do not think we have the time, but I 
would like to talk to you later on exactly what you do do on 
that issue. He served 27 years in military intelligence.
    And, Rick, thank you for your service in the past. I do 
have a question, though. Your testimony says 85 percent of the 
veterans do not go to the VA. I am not going to denigrate you 
on that number right there.
    But if I looked at the numbers that we are looking at and 
the shortfall the VA had in treating OIF/OEF, it is my 
recollection that at least a quarter million veterans have made 
some intervention and contact with the VA, good or bad, or for 
whatever their service is. I am not sure how that number works.
    And a question also for all of you is, I think that Mr. 
Space and Chairman Mitchell have talked about what is the best 
way to get out there, and I think the way we wrote the question 
or the question came up in the first hearing is whether or not 
you could use an Internet address, nonmilitary as you talked 
about, Brian, that most younger generations follow.
    And I think the VA responded to that in QFR or questions 
for the record hopefully that Ms. Mondello will be able to 
expand upon what the progress is on the legality and the 
privacy issue of using that DD-214 or getting the services to 
agree somewhere on the DD-214 or for the separating service 
that they have a good personal e-mail to follow you on. I think 
that that could be very, very effective and hopefully they will 
talk about that.
    And this is collectively to the group right here. You heard 
about the ads. Mr. Space talks about rural areas. VA is going 
to have a million dollars to do this ad campaign. How do you 
approach multi generations, urban, suburban, rural?
    And real quickly your thoughts as to what you think, you 
know, for VA's use on suicide intervention that solidly 
captures the soldier's attention, motivates them, what would 
motivate them, what would the message be that motivates them to 
reach for their phone or go to their keyboard?
    Mr. Spann. One idea that I am always taking is the drunk 
driving commercials, the one where the little girl is on the 
swing set and then it has the screen go black and it says a 
drunk driver killed this girl. Ads like that are in your face, 
that people are going to be remembering.
    It has been a few years since I have seen the last one of 
those, but it still is in my mind. Stuff that, you know, does 
not hide the truth, the ugliness of suicide, something that is 
in your face and it is going to make people think right then 
and there what is happening.
    Then again, the people that are viewing these ads, you 
know, just like an alcoholic. An alcoholic might not admit he 
has a problem. A person with suicidal issues might not admit 
they have a problem. It is that person's friends and family who 
also need to be targeted. And if we can do that through that 
same ad, I think it is going to be a win-win situation.
    Mr. Wu. Congratulations on being accepted to George 
Washington University. Are you in marketing or what is your 
major?
    Mr. Spann. International affairs, sir, conflict and 
security.
    Mr. Wu. You might want to think about that.
    Brian.
    Mr. Hawthorne. Sir, when we were preparing for this 
testimony, Mr. Bestor showed us a video that the Army is 
currently using internally and it has a First Sergeant or a 
higher ranking non-commissioned officer (NCO) going through two 
different stories of soldiers that went down range and came 
back. And they said, well, I lost these soldiers. And this is 
what we should have done.
    I think in my experience in the military, the military does 
not want to hide from these issues. We are an organization that 
wants to stand in the light of day and we do not want to lose 
any more of our guys. And so to not only place the burden on 
the families, but also on the current service.
    I wrote down when Mr. Space was speaking on rural areas. 
There is a recruiter in almost every county, right? I mean, 
that is a person who is still in uniform. That is someone who 
has served. I mean, obviously if they are a recruiter, they are 
an outstanding NCO or officer. That maybe someone who served 
would say, hey, you know, my buddy, he used to look like you. 
He is struggling.
    Arm the recruiters even if it is one more piece of paper, 
and I hate to burden them, but they are out there already 
because obviously we are trying to bring in as much as we are 
trying to take care of those out. Arm the recruiters because 
they are there, part of the communities. Most of them speak at 
high schools, colleges, et cetera.
    I mean, give them a couple hours of information just in 
case someone does come up to them. You know, put the ad on the 
window. And as much as I worry if this would hurt recruiting, I 
mean, because obviously we are trying to bring in young men and 
women who do not want these issues, but to somehow with the 
marketing people say, hey, if you do ever have these issues, 
welcome to the Army, but when you do have these issues, we will 
take care of you if you do. And it can have a positive spin. It 
does not have to be negative.
    Mr. Wu. Thank you.
    Mr. Weidman. That would be great if recruiters would do 
that, but my experience over many years is that it has about as 
much chance of a snowball in Haiti of that happening because 
recruiters, the whole reward system is set up for recruiting 
and they do not want to talk about problems.
    But the problems and how the problems get realized is, it 
is often what gets a veteran to reach out for neuropsychiatric 
help, but sometimes for physiological help too. It is not the 
individual veteran. It is his or her family. And the best way 
in rural areas to reach families is radio and the creative use 
of radio in cooperation with weekly newspapers which we almost 
never use.
    And the second thing is look at what are the social 
organizations, whether it be the Eagles or the Elks or 
religious organizations, and VA often says no, no, no, that is 
a violation of church and state. Well, it is not a violation of 
church and state in order to educate those clergy of all faiths 
to then share good information with the families in their 
congregation.
    And that is another way that has not been tapped at all, 
particularly having to do with the importance of pastoral 
counseling in rural America. It is something that we have not 
tapped into at all and that the military is using more and more 
in training chaplains in pastoral counseling that really goes 
over into PTSD and neuropsychiatric counseling.
    Mr. Mitchell. Thank you very much and thank you all for 
your service. We appreciate you coming today and hopefully we 
can make some real changes as a result of what we learned from 
you. Thank you.
    I would like to welcome the second panel. At this time, I 
would like to recognize Ms. Cary Hatch, President and Chief 
Executive Officer, MDB Communications located here in 
Washington, DC.
    I would like to recognize you for 5 minutes, Ms. Hatch.

STATEMENT OF CARY HATCH, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
            MDB COMMUNICATIONS, INC., WASHINGTON, DC

    Ms. Hatch. Good morning, Chairman Mitchell and 
distinguished Members of the Subcommittee. My name is Cary 
Hatch. I am the President and Chief Executive Officer of MDB 
Communications.
    MDB is an independent, 27-year-old advertising agency 
headquartered here in Washington, DC. We serve a diverse 
national and global client base including National Geographic, 
Hunter Douglas, and Boston Market.
    We have also worked with the Partnership for a Drug-free 
America, the wellness community, and Samaritans for the 
Homeless.
    Our agency expertise encompasses television, print, online, 
and social media, as well as direct marketing and PR programs.
    I am privileged to serve as the Chairman of the Mid-
Atlantic Board of Governors for the American Association of 
Advertising Agencies or the four As. And I am the recent 
Chairman of Advertising Week DC.
    I also serve on the Executive Committee of the Greater 
Washington Board of Trade and hold a Board position for 
Leadership Greater Washington.
    I have been fortunate to be recognized as a Silver Medal 
honoree, an honor given by the American Advertising Federation 
for leadership and commitment to the community and to the 
industry.
    More importantly, as a lifelong advocate and perpetual 
student of the ever changing advertising industry, I have 
devoted my entire career to leading advertising and marketing 
initiatives that meet or exceed their goals. And I maintain a 
keen sensitivity to the return on investment for every program 
we lead or are a part of no matter the brand, whether publicly 
traded or not for profit.
    I just want to add that it is a great honor to be here 
today. You know, my credentials do not really hold a candle to 
the prior panel, but it is really a privilege to talk about 
advertising as a force for good more than just selling a 
product or service.
    So thank you for the opportunity to share my thoughts today 
regarding the pilot program for the Veterans Administration's 
current outreach efforts.
    With a new directive from Secretary Peake, the VA is 
provided with a wonderful opportunity to utilize paid media to 
fulfill a communications mission, to promote awareness of 
veterans' programs, including opportunities for education, 
training, healthcare, and other benefits, including the 
prevention of veterans' suicides.
    Chairman Mitchell during your last hearing, I believe, ably 
pointed to the need for the VA to take advantage of the 
communication possibilities of modern media but must do so 
intelligently. This was further supported by the Honorable 
Ginny Brown-Waite stating that 21st century technology needs to 
be explored.
    Furthermore, Chairman Mitchell, I understand you went on to 
correctly point out that the VA marketing efforts are not about 
the VA, but it is about the veterans. I applaud that.
    Before doing anything, you went on to state that the VA 
must learn to see the world from the perspective of the 
veterans' perspective, not just the VA's. The VA must come to 
understand where veterans can be reached and what messages and 
messengers will get veterans' attention. And you went on to 
acknowledge that this is not something the VA has done before.
    I am proud to underscore the history, power, and 
corresponding results of public service advertising and what 
has been documented since 1941.
    Whether we consider the United Negro College Fund's, ``A 
mind is a terrible thing to waste,'' campaign, the Peace Corps' 
effort of the toughest job you will ever love, or the 
Partnership of a Drug-free America's numerous campaigns that 
unsell drug use, they have all been effective in changing 
perceptions and behavior.
    Key to this are the fundamental tenets found in all 
effective advertising campaigns. Therefore, public service 
advertising as with all advertising relies on achieving their 
potential by calibrating the following ingredients.
    The right message, one central idea that matters to them. I 
know Mr. Spann spoke to that earlier. The right media, reaching 
the target based on their media consumption habits, not on our 
budgets or what we believe to be right, but what we know will 
reach them.
    And all this is to be propelled by sufficient investment 
spending levels or media weight, as we would say, to 
communicate the message to the prospective target and securing 
reasonable awareness resulting in comprehension, conviction, 
and motivation to action when they need it, not just when we 
are out in the marketplace.
    In order to ensure that this is done, the VA must produce 
the right message that I mentioned earlier, garnering a 
visceral response that will lead to action.
    In my experience in working with the Partnership for a 
Drug-free America, the best campaign successes are founded on 
specific consumer research that identifies a unique consumer 
insight that is in turn conveyed to the target in a meaningful 
way.
    This is the distinctive talent that seasoned advertising 
professionals bring to life. While advertising is not an exact 
science or merely just an art, it is a combination of research, 
insight, inspiration, and persuasion that moves people to 
consider your message and compel them to act on or advocate for 
your notion.
    When done well, tremendous results can take hold. Done 
poorly, your effort will join the clutter of thousands of 
messages that lay dormant. My advice, hire a pro.
    One option is to engage the Ad Council. I know that the VA 
has done that previously. So if you have not already done that 
for this initiative, I would strongly recommend it.
    The Ad Council marshals volunteer talent from the 
advertising and communications industries and facilitates the 
media and resources of business and nonprofit communities to 
create awareness, foster understanding, and motivate action.
    Ad Council campaigns are produced on a pro bono basis for 
advertising agencies retained by the American Association of 
Advertising Agencies. Each Ad Council campaign is sponsored by 
a nonprofit organization or Government agency such as this.
    The Ad Council works with ad agencies throughout their 
development of the campaign. They help you conduct your 
research, media outreach, public relations activities, and 
creative services.
    That brings me to investment spending. Brilliant 
advertising ideas can only take flight when supported by ample 
but prudent investment spending. Top notch creative ideas 
cannot be supported if you do not allow the budget to make it 
happen.
    It is important to note that the air time that PSA 
campaigns seek can be largely decided by public service 
directors at media outlets across the country and getting them 
to select your television spot over the plethora of others can 
be tricky.
    It is not just about your cause, but also about the quality 
and impact of the campaign you submit for their consideration. 
The directive here is to meet the needs of the public service 
directors, the very folks you need to engage to actually run 
your television, to place your print advertising, to support 
your radio campaign, or your transit work.
    I am a tenacious advocate of managing campaign expectations 
by aligning investment spending with productive results as they 
are in direct correlation with one another and it is a 
necessary disciplined effort that will bring them to light and 
a successful conclusion, which leads me to the next tenet, 
using the right media or fish where the fish are.
    It is my understanding that in addition to reaching all 
prospective candidates for VA support, ensuring that we reach 
younger veterans as well is of prime importance, specifically 
those young men and women returning from Iraq and Afghanistan.
    I would put forth for your consideration that with the 
evolving media consumption habits of the country and indeed the 
world, embracing the fast-paced area of new media options would 
be of foremost consideration for a campaign of this type.
    Use of social networking platforms that were mentioned of 
Facebook, MySpace, and others can prove to be some of the most 
cost-effective media strategies the VA can examine and exploit.
    Modern media such as online advertising campaigns, social 
networks, search engine marketing, contextual targeting, et 
cetera, in addition to television and radio are essential tools 
for outreach, particularly when it comes to young and old 
servicemembers alike.
    Strategically when there is alignment on the definition of 
what success looks like, smart investments of funds can take 
place, seasoned agency partners and internal support from the 
VA and a firm commitment to tracking campaign results, this can 
all lead to a solid campaign road map and program and outcomes 
that can be achieved and measured.
    I look forward to hearing the results of the test program 
here in Washington, DC, and what was learned from that activity 
and what was achieved. That will likely shape the program going 
forward.
    I think we can all agree that there is much to consider in 
committing additional funding to roll out the program on a 
regional or national level.
    In summary, recommendations include consider working with 
the Ad Council or the four As to identify an agency partner in 
this effort. Their experience in this arena can shorten the 
inevitable learning curve and the lack of experience that VA 
has acknowledged in this arena in prior comments. This 
strategic alliance is likely to ensure the best use of the 
Government's resources.
    Next developing and documenting desired outcomes such as 
the campaign and what that campaign should look like and 
committing to tracking campaign performance with regular 
reporting is absolutely necessary. The beauty of the Internet 
is you can change your investments on the fly. If something is 
not working, you can conserve those dollars and reappropriate 
them quickly.
    Evaluating and aligning the internal VA leadership that 
will direct and administer the campaign is also critical. And 
that comes with also aligning with outside firms and agencies 
to maximize your internal talent and your external expertise.
    It is critical that the VA embark on a nationwide effort 
with the best professionals it can secure by its side in this 
uncharted area. It is necessary to avoid wasted time and money 
and key to achieving this and our intended goals is informing 
and supporting our veterans.
    Thank you again for the privilege to meet with you and 
share my point of view on this important program. The power of 
advertising is great and the outcomes can be significant when 
based on thoughtful, strategic, and comprehensive planning that 
leads the way. Thank you.
    [The prepared statement of Ms. Hatch appears on p. 39.]
    Mr. Mitchell. Thank you.
    I just want to remind everyone that we are expecting votes 
within the next 15 minutes.
    I have a quick question, Ms. Hatch. Dealing with an 
organization like the VA, which has very different 
demographics, what steps would you advise the VA to take to 
ensure that the public awareness is effective? And then as a 
follow-up to that, when you do a nationwide campaign or any big 
advertising campaign, how do you measure success?
    Ms. Hatch. Many times it begins with acknowledging what the 
universe is that exists that we are trying to reach. There are 
different kinds of tracking mechanisms that you can put into 
place.
    For instance, I know the number earlier was circulated of 
eight million possible veterans that we are looking to target. 
You know, we are looking for increases, movement, and activity 
regarding phone calls, e-mail inquiries, actual service and 
commitment to those people, responding to their inquiries. 
Those would be all sources of demonstrating success.
    In terms of the demographics, you know, we may want to look 
at segmentation. We may want to look at different campaigns 
going to different and younger demos, for instance. We may look 
at a print and radio campaign going to an older demo. Those 
would be some of the variables I would look at.
    Mr. Mitchell. Mr. Space.
    Mr. Space. Thank you, Mr. Chairman.
    Just as a follow-up to some of the questions I asked the 
previous panel, I am curious as to whether there are any 
special or different types of advertising or marketing 
techniques that would be more effective either in rural America 
or in an effort to reach out to rural Americans, whether their 
appeals are a little different.
    And you referenced very briefly telephone calls. You know, 
I know that, you know, we in this business and the business of 
statesmanship, others would call it politics, find it 
compelling to reach out to our constituents. And, you know, we 
use radio. We use TV. We use telephone calls. We use direct 
mail.
    But I have noticed, you know, we are in a changing world 
when it comes to the technology available to us, things like 
widespread telephone townhalls are now very easy to set up 
where you could, for example, create a system whereby every 
veteran with a telephone could be called on a given time and a 
given date and invited to participate in this thing live.
    These are new and kind of evolving technologies. I am 
curious as to your take on, you know, the best way to reach out 
to these rural veterans, many of whom do not have access to 
broadband again and many of whom do not access large public 
arenas like subway stations.
    Ms. Hatch. I believe it may have been a prior witness that 
referenced telephone calls and I will bow to them in that 
recommendation.
    To address your first question regarding rural locations, 
it may be more of a PR effort. I mean, one of the things that 
we have not talked about today to any great extent, and I am 
not sure to the degree it is a part of the marketing mix that 
is being examined, is PR initiatives. You know, the third-party 
credibility of seeing things in print, seeing things in 
newspapers could be a way specifically.
    There also could be events related kinds of activities as 
well, radio. Traditional mass media like radio and television 
would reach those audiences as well.
    On the online side, one of the things that is the beauty of 
the Internet is when you talk about MySpace and Facebook, you 
can invite people to events. You can invite within that online 
community web casts, veterans talking about successful 
intervention or interface with the Veterans Administration what 
is has meant to them.
    You know, those kinds of things can be done anonymously 
which I think has, you know, certainly benefit to a lot of 
people that are concerned about confidentiality. Those are the 
kinds of things from an online perspective I would look to 
examine.
    The PR, I think, could benefit both people in highly 
concentrated, you know, urban environments as well as, you 
know, more rural environments.
    Mr. Space. Thank you.
    Mr. Mitchell. Mr. Wu.
    Mr. Wu. Thank you, Chairman Mitchell.
    Ms. Hatch, I have just two questions here. I have seen 
where the cost per minute for an ad at halftime, I mean, it is 
prohibitive depending on what the Federal budget is. And maybe 
I just do not pay attention to maybe other than equipment 
malfunctions at halftime.
    But are there PSAs that go on at halftime? I do not think I 
have ever seen one. A lot of PSAs I see are at one o'clock in 
the morning.
    Ms. Hatch. Well, the answer is not clear. It depends. You 
know, sometimes you are able to slot PSA material in brilliant 
time, meaning high traffic time, you know, whether it is a 
sports event or not. It has a lot to do with inventory and the 
ability for paid advertisers to deliver spots.
    Occasionally we will have our public service clients 
benefit from somebody who has dropped out of the loop. It 
depends on what you can get in terms of supply and demand, you 
know, for the marketplace.
    Mr. Wu. Can you compel the big four or cable or XM or 
Sirius to do a PSA?
    Ms. Hatch. You can. One of the things we have been 
successful in doing for the Partnership for a Drug-free 
America, and I am sure everybody in this room is familiar with 
their success, has been to bring together, you know, the major 
networks and the major players to get them to commit to 
roadblocks, for instance, where every major broadcast partner 
will run the same material for the same cause at the same time 
has a huge impact.
    I will tell you my experience in this area has changed over 
the last 15 years. I was the key market coordinator for the 
Partnership for a Drug-free America here for Washington, DC. I 
was the person that went and begged for space and time to run 
our messages in a reasonable way at high volume, high traffic 
times.
    It used to be a lot easier than it is today for sure. 
Inventory is a problem no doubt, but that is not a reason to 
stop trying.
    Since the Office of National Drug Control Policy got 
involved with the Partnership for a Drug-free America, we have 
been successful in working in tandem with them and getting a 
paid schedule in addition to a bonus schedule where they will 
plus up the number of spots they will give us for that paid 
commitment.
    So it is a matter of negotiation. It is a matter of working 
with Ad Council. It is a matter of working with pros that can 
negotiate with our broadcast partners or our print partners or 
our transit partners in a way that can get them engaged and 
bring this to the table.
    Mr. Space. Thank you very much.
    And thank you very much, Mr. Chairman. I do not watch 
advertising very much, but I still remember on the drug free ad 
the fried egg.
    Mr. Mitchell. Thank you. Thank you very much, Ms. Hatch.
    Ms. Hatch. My pleasure.
    Mr. Mitchell. Our third panel at this time is the Honorable 
Lisette Mondello, Assistant Secretary for Public and 
Intergovernmental Affairs for the Department of Veterans 
Affairs. Ms. Mondello is accompanied by Mr. Everett Chasen, 
Chief Communications Director for the Veterans Health 
Administration, Department of Veterans Affairs.
    If you could, we are facing vote time, so if you could keep 
it to 5 minutes, it would be greatly appreciated.

STATEMENT OF HON. LISETTE M. MONDELLO, ASSISTANT SECRETARY FOR 
   PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS; ACCOMPANIED BY EVERETT A. CHASEN, CHIEF 
 COMMUNICATIONS DIRECTOR, VETERANS HEALTH ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Ms. Mondello. Thank you, Mr. Chairman and Congressman 
Space.
    I am here today to provide the Subcommittee with an update 
on the progress the VA is making with our new authority to use 
professional marketing and advertising resources to more 
effectively reach and educate veterans and their families about 
VA benefits, services, and healthcare information.
    Even in the short time since I last testified before the 
Subcommittee, I am very encouraged by our progress.
    In addition, I will also provide the Subcommittee with the 
initial results of the Veteran Health Administration's proposed 
suicide prevention outreach campaign.
    And, again, let me thank you and the other Members of your 
Subcommittee not only for your strong support for outreach that 
includes, when appropriate, paid advertising but your continued 
interest in following our progress.
    Just 3 months ago, Secretary Peake lifted the restriction 
on advertising. I was then, and I continue to be now, a very 
enthusiastic supporter of this effort.
    It is critical that an effective and appropriate 
implementation plan be put in place. Both Ms. Hatch today and 
the marketing and advertising panel at the last hearing said 
that as well as the Members of this Subcommittee.
    The first element of such a plan is to bring on advertising 
and marketing professionals to assist us, including importantly 
market or consumer research. To that end, the VA's Contracting 
Office has recommended that we use the Federal Supply Schedule 
known as FSS.
    This will allow us to target all aspects of the marketing 
and advertising community, particularly small businesses and 
especially veteran-owned small businesses, and to do so in a 
timely manner.
    This schedule has already provided to us an extensive array 
of advertising and marketing vendors with much of the 
appropriate expertise we need to help us shape our marketing 
and advertising strategy. And I am already in the process of 
interviewing a number of these companies.
    For fiscal year 2009, the Office of Public and 
Intergovernmental Affairs should have up to a million dollars 
available to administer this effort.
    As we discussed during the last hearing, one area that we 
are anxious to explore, and I want to thank the first panel as 
well as the second panel for highlighting the need for this, is 
social networking. While there are some legal issues that 
Federal agencies must overcome, discussions are underway to 
resolve those issues.
    VA and our Federal agency partners are working together to 
secure appropriate contractual agreements with social media 
companies.
    While we expand into new media, which I believe will allow 
us to more effectively reach our newest generation of veterans, 
our basic goal remains the same, to reach all veterans of all--
I remember those bells from my years here--of all eras of 
service with the messages of greatest concern to them through 
the medium that is most effective.
    As I originally testified a few weeks ago, we will provide 
the Committee with a more comprehensive overview in December 
when we submit our scheduled report of outreach activities to 
Congress.
    Finally, at the last meeting, the Members expressed 
interest in the Veterans Health Administration's (VHA's) 
proposed suicide prevention outreach campaign. And we showed 
you the draft of the ads to my left that were being developed 
for a pilot in the DC area that was aimed at advertising in the 
mass transit system. Ads were placed on buses, subway cars, and 
in Metro stations.
    We also showed a proposed public service announcement by 
actor Gary Sinise. And I am pleased to have the opportunity 
today to update the Subcommittee on the progress of all those 
efforts as well.
    At the last hearing, VA was asked how we arrived at the 
messages used in the suicide prevention campaign. Let me first 
say that we began the process of selecting the message for both 
the PSA outreach campaigns while we were still subject to the 
restriction on paid advertising.
    VHA's Communication Office decided that a reasonable 
approach would be to have the project communications team 
attend a message development workshop. This workshop was 
conducted by Macro International, a professional communications 
company that is under contract to the U.S. Department of Health 
and Human Services, the Substance Abuse Mental Health Services 
Administration. This provided our team with the basic skills, 
training necessary to develop a focused message.
    The cost to date for production and distribution including 
artwork, printing, the leased space in the DC area is $115,000.
    VA's analysis of this campaign has revealed a very positive 
effect. The data shows a 50 to 100-percent increase in calls 
from this area where the advertising is running.
    Specifically the average weekly calls from the area codes 
in the DC area increased from six to fourteen, in northern 
Virginia from five to fourteen, and in Maryland from ten to 
twenty-seven. Quite effective.
    As to the Sinise PSA campaign, we expect to begin 
distribution next month. Based on our successful experience 
last year with the healthier U.S. vets PSA campaign with John 
Elway, we expect to reach an audience of over eight million 
viewers.
    Our goal has not changed since we last met. We will do all 
we can to make veterans and their families aware of the 
benefits and services VA has to offer. We will take advantage 
of new opportunities, keep an open mind, and aggressively seek 
to find the best advertising technology and methods available 
to reach our customers, the veterans.
    I believe, sir, that we are in total agreement that we must 
move forward with sound professional expertise using a variety 
of options to reach out and positively connect with veterans 
and their families.
    Mr. Chairman, that concludes my formal statement. I 
appreciate your time.
    [The prepared statement of Hon. Mondello appears on p. 41.]
    And we do not have time for questions. I will adjourn this 
hearing. We have to vote. And then there are votes almost 
within 45 minutes after that again. So thank you very much. And 
I thank everybody for coming.
    Ms. Mondello. Thank you.
    [Whereupon, at 11:32 a.m., the Subcommittee adjourned.]



                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Harry E. Mitchell, Chairman,
              Subcommittee on Oversight and Investigations

    This hearing will come to order.
    Today, we are following up on the Department of Veterans Affairs' 
efforts to reach out to the 17 million veterans in our country who are 
eligible for benefits but who are not enrolled to receive them.
    We will be hearing from veterans about their perception of VA's 
pilot public awareness campaign in Washington, DC, to promote awareness 
of the suicide hotline and VA mental health services. We are honored to 
have them here. We will also hear from the marketing firm MDB 
Communications about best practices for reaching consumers. Finally, 
the VA will update us on the status of the pilot public awareness 
campaign and its plans for expansion in conjunction with a national 
outreach strategy.
    As you will recall, CBS News reported last November that veterans 
aged 20-24 were committing suicide upon return from service at a rate 
two-and-a-half to four times higher than their non-veteran peers. This 
report raised a critical question. If, by the VA's own estimate, only 
7.7 million of America's 25 million veterans are currently enrolled and 
receiving benefits, how are we bringing the VA to the remaining 17 
million veterans?
    Waiting for veterans to show up at the VA is neither effective nor 
acceptable. The VA must be more proactive.
    In June, Secretary Peake took a promising step forward by formally 
lifting the VA's longstanding, self-imposed ban on paid advertising.
    On July 15, this Subcommittee heard testimony on the creation of an 
outreach strategy to alert veterans and their families where they can 
turn for help. In the hearing, marketing experts encouraged the VA to 
conduct thorough market research before executing an advertising 
campaign, emphasizing the need for a strategic plan with a market-
tested message, and with measurable objectives that focus on veterans' 
needs.
    We also heard from the VA's Assistant Secretary for Public and 
Intergovernmental Affairs, Lisette Mondello, about the Department's 
outreach plans, specifically, the 3-month pilot campaign to promote 
awareness of VA's suicide hotline in Washington, DC.
    Today, Assistant Secretary Mondello will update us on the status of 
the pilot project, which is scheduled to conclude next month. Last 
week, VA National Suicide Prevention Coordinator Janet Kemp testified 
before the Veterans' Affairs Subcommittee on Health, saying that calls 
in DC to the suicide hotline more than doubled after the pilot public 
awareness campaign began and that VA supports extension of the campaign 
to other areas. We look forward to hearing how VA plans to do this, and 
how the VA can ensure maximum possible effectiveness.
    After hearing about the importance a well-researched, 
comprehensive, targeted outreach strategy in the July 15th hearing, we 
also look forward to learning what recent progress has been made in 
procuring the necessary market research expertise to help VA develop 
and refine its national outreach strategy.
    Additionally, in the July 15th hearing a public service 
announcement featuring Gary Sinise was shown. I am curious to know why 
it wasn't distributed to television stations in the Washington, DC, 
area as part of the DC-based pilot public awareness campaign, so the VA 
could gain initial some initial feedback?
    It is now my understanding, based on what the VA has told our 
Subcommittee staff, that the VA plans to award a contract next week to 
distribute this public service announcement nationwide.
    While I am pleased to see the VA moving so swiftly, I want to make 
sure that it is doing all it needs to in order to ensure that its 
efforts have the maximum chance of success. I know we need to get the 
message out as quickly as possible, and this is certainly a fast way to 
do it, but if market research concludes that this is not the best way 
to do it, I want to know that the VA will be able to make the necessary 
adjustments, and that the distribution of this one public service 
announcement will not preclude distribution of a more thoroughly 
market-tested public service announcement in the future.
    I am also eager to learn how the VA will be tracking the use of 
this public service announcement by televisions stations, and whether 
it is proving effective.
    Finally, I look forward to hearing more about the VA's potential 
use of paid advertising at movie theaters nationwide to show the Gary 
Sinise public service announcement. In response to a post-hearing 
question from our July hearing, Ms. Mondello suggested the VA is 
considering this as an option. This is certainly innovative, and if 
this is the best way to reach veterans at risk for suicide and let them 
know where they turn for help, then I am all for it. The only question 
is: is it? I am eager to learn why the VA finds this particular 
approach so promising.
    But first, we will hear from four veterans who live in the 
Washington, DC, area and who have been exposed to the pilot public 
awareness campaign. I am eager to hear their impressions of this 
campaign, and I trust their input will be useful to the VA, as well.
    We will also hear from Ms. Cary Hatch, President and Chief 
Executive Officer of MDB Communications. I expect that her testimony 
will enlighten all of us on the requirements and potential pitfalls of 
launching an effective national advertising campaign.
    Thank you to all of our witnesses for coming to testify before the 
Subcommittee today. The fact that we are holding this hearing, the 
second this year to focus on media outreach, should make clear the 
importance of this issue, and we look forward to your testimony.
    Before concluding, I want to publicly thank Chairman Michaud and 
Ranking Member Miller of the Subcommittee on Health for their 
dedication to veteran suicide prevention and all their hard work on 
this issue. Finally, thank you to Ranking Member Brown-Waite for being 
such an invaluable partner in helping to ensure that our Nation's 
veterans receive the benefits they deserve. Before I recognize the 
Ranking Member for her remarks, I would like to swear in our witnesses.

                                 <F-dash>
                 Prepared Statement of Brian Hawthorne,
                      Washington, DC (OIF Veteran)

    Good morning, Chairman Mitchell and other Members of this 
distinguished Subcommittee. I truly appreciate the privilege of your 
time to offer my perspective on veterans' mental health and suicide 
prevention.
    I am currently serving as an Army Reservist while I attend the 
George Washington University here in DC. I am a combat medic in the 
military and have served two tours in Iraq, the most recent as part of 
the Surge in Baghdad, and I returned to U.S. soil on Memorial Day of 
this year after ten difficult months.
    As a medic, I am responsible and intimately connected to the health 
and well-being of the soldiers in my unit, which is increasingly 
revolving around mental health. The Army has begun placing much greater 
emphasis on the mental health and welfare of its Soldiers, with the 
placement of combat stress teams on most bases in theatre, and much 
more required training and briefings for Commanders, medics, and 
Soldiers alike. These efforts have paid great dividends in reducing the 
stigma associated with seeking mental healthcare, and I believe that 
leadership at all levels are now much more supportive and encouraging 
in this matter. This not only enhances the level of care available to 
most soldiers in theatre, but also makes identification and treatment 
of issues more rapid and effective. These efforts should be encouraged 
across the military.
    Obviously, however, this fight does not stop upon leaving the 
battlefield. Even more important than the availability of mental 
healthcare in theatre is the availability and usage of such care at 
home. There are some key differences between these environments that I 
would like to outline for you briefly before I go on.
    In country, your average service-member has daily interactions with 
their chain of command, as well as with their peers who are 
experiencing essentially the same stresses. Therefore, it is 
significantly easier for an aware leader to be able to identify ``at-
risk'' individuals by comparing how he or she is handling their stress 
compared to everyone else. Along these same lines, it is also much 
easier for a healthcare provider or commander to track the development 
of a condition over the course of a tour because, for the most part, 
everyone entered theatre at the same time, and therefore their exposure 
to trauma and stress is essentially equal.
    In these conflicts, especially at this phase, where the theatres 
are so mature and rich with resources, service-members have many more 
stimuli affecting their stress levels than ever before. It is not 
uncommon to have Soldiers talking to their families or friends on 
phones or online hours or even minutes before leaving the wire on a 
combat patrol, as the time difference lends convenience to that time of 
day. Now imagine for a moment if that short albeit critical 
conversation does not end well for that servicemember, be it a fight 
with a spouse, a sick child, an unexpected expense, or just tension 
from the other line. That soldier now has significantly more on his or 
her mind than their peers, yet still must be able to handle the same 
stresses of their mission. I am not a psychologist, but I can say from 
experience that stresses from home can significantly amplify the stress 
of combat.
    Upon redeployment after the tour, the homecoming experiences run 
the gamut, from good to bad. For the most part, the excitement of 
reuniting with families and the real world takes precedence over all 
else, and whatever issues that servicemember was facing are pushed 
down. As we now know, this is not only dangerous and unproductive, but 
it is normal. ``What happens in Vegas stays in Vegas'' does not apply 
here, yet many service-members wish it did. Maybe they think their 
buddies don't want to talk about it any more, and that their families 
and friends wouldn't understand, but for the most part, in those first 
few weeks, elation and relief is perceived as progress and a cure. The 
veteran selects the middle of the road answers on the mental health 
survey, and is released from the out-processing center. After all, he 
just wants to get home! He doesn't want to stay away from his family 
any longer, or hold up his buddies' demobilization, so he skimps on 
details with the healthcare provider and goes on home.
    In most units, this is the time where the most issues begin to 
occur. A family or lifestyle is not as he remembered, and he no longer 
has his battle buddies around to talk to, to keep track of him. He may 
have a few months off now, with a regular paycheck and no one 
accountable for him. As a Reservist with multiple tours, I had almost 
70 days of leave accrued, which was kindly tacked on to the end of my 
tour as part of my terminal leave. During this time, I reached out to 
the friends and family that I had missed while I was gone, and to my 
close friends from the tour. At no time, however, did my chain of 
command, or anyone else, contact me to see how I was doing. The 
rationale for this, at least in my experience, is that Soldiers don't 
want to be bothered with Army business during this time, so they are 
not.
    During these months, however, other soldiers reached out to me. 
Even though we were off-duty, and in some cases no longer in the same 
unit, my guys from downrange still felt comfortable calling ``Doc 
Hawthorne'' to chat about what was going on, as they had while we were 
in Iraq. Mostly, they wanted to know what ``normal'' was. ``Should I be 
having trouble sleeping?'' ``Is three beers a night too much?'' ``My 
wife isn't as interested in sex as she used to be; is it me?'' and so 
forth. As I said, I am not a psychologist, and I know the limits of my 
capabilities. I would help as I could to talk them through these 
issues, but mostly I referred them to Military OneSource, which was 
heavily advertised to us both downrange and during our post-deployment 
briefings. For the most part, they received outstanding treatment from 
this system, and are continuing to see one of their assigned therapists 
with great success.
    The question then becomes, hence this hearing, what about the 
veterans who don't have a Doc, or who do not know about Military 
OneSource? Or what about the family member who has concerns about their 
recently returned veteran, and does not know who to call? That, I 
believe, is where the VA Suicide Hotline plays the most important role. 
By advertising its availability and convenience, not only where the 
veterans are, but also where their families and friends are. By making 
this service public knowledge, we are infinitely increasing the 
likelihood that a veteran will end up using it, either through his own 
discovery, or the peer pressure, so to speak, of a concerned family 
member or friend.
    If this is indeed our objective, then there should be no limit to 
the creativity applied to its distribution. While it could be argued 
that a veteran is not likely to be sitting at home at noon on a Tuesday 
watching soap operas, it is very possible that his mother or 
grandmother could be, and having just had a conversation with him about 
his difficulties, has been empowered with information that could save 
his life. On the opposite end of the spectrum, his or her teenager may 
not fully understand what their parent has been through, but they 
understand that they are different now, maybe more irritable or 
withdrawn. Well, soap operas may not be the way to reach this 
demographic, but certainly ads in arenas such as Facebook, MySpace, 
Google, etc. may register enough with them to prompt a conversation or 
intervention. We cannot afford to forget the influence of such mediums.
    To speak specifically on the ads that are currently running here in 
DC, I would like to make the following comments. First, it is 
imperative to emphasize the confidentiality of such services. Bearing 
in mind that many veterans are still in some kind of government 
service, career progression is a major consideration when seeking help. 
I personally know soldiers who refrain from seeking any sort of 
official mental healthcare due to the fact that they do not want a 
``black mark'' in their record, so to speak. This is not an official or 
institutional issue, this is a personal one, in that in the military, 
we promote our own image. Take for example, a friend of mine who is a 
young infantry Lieutenant who served as a platoon leader in Iraq and 
then comes home and seeks mental healthcare. How likely is his unit to 
send him to an arduous course such as Ranger School, after seeing that 
he struggled with combat stress? What about when he is up for promotion 
to Major, or eligible for Battalion command as a Lieutenant Colonel? 
Are the General Officers on the board likely to give him that command, 
with his history of mental health issues? Again, we must allow for this 
soldier the opportunity to talk through some of these issues without 
hurting their career opportunities down the road, and I believe that 
the VA is the agency for that.
    Secondly, the ``strength of a warrior'' quote is an excellent one, 
and I agree with it wholeheartedly, however, it is pretty exclusive to 
the Army and the Marine Corps, and does little to reach out to our 
water- and sky-borne brethren. We cannot afford to have this service 
seem exclusive in the least. Lastly, and probably most importantly, 
basic market research must be done to decide who the VA is trying to 
reach with each ad, and then tailor the ad for that demographic. A 
quote in front of a flag is great, but the marketing industry spends 
billions of dollars every year researching how to best convey a message 
to a certain audience, and we must tap into that expertise so as to 
expand the appeal and digestion of our message.
    In closing, I would like to reemphasize the fact that the military 
is currently making great strides in caring for the mental health of 
our service-members while they are deployed and when they return home. 
There is still much to be done, especially for Guard and Reservists who 
are essentially cut to the four winds upon return home, but even in the 
two years between my demobilizations, much had changed for the better. 
The VA, therefore, has big shoes to fill for those who are no longer in 
and must transition from the military to their services. I would highly 
recommend collaboration with Military OneSource and other such services 
for best-practice examples.
    Secondly, these initial efforts of advertisement are to be 
commended, and I would ask that the VA expand on these initiatives for 
all of their benefits, particularly education and the new GI Bill and 
other health services. What often keeps a veteran from achieving their 
full potential with earned benefits is sadly just ignorance of their 
entitlements. Again, it may be an observant family member that sees an 
ad and can drastically change the life of one of our Nation's heroes 
for the better.
    Thank you for your time, and for your service to our veterans and 
their families. I welcome the opportunity to answer any questions you 
may have.

                                 <F-dash>
                  Prepared Statement of Wade J. Spann,
                      Washington, DC (OIF Veteran)

    Chairman Mitchell, Ranking Member Brown-Waite and Members of the 
Subcommittee, I am honored to be here today to speak on behalf of my 
experiences as a combat wounded veteran. I would also like to take this 
opportunity to thank Elsie Moore, Ilene Greene, and other employees 
from the VA who have aided me in my transition out of the Marine Corps 
and continuing recovery from my injuries.
    I joined the United States Marine Corps on August 6, 2001. I fought 
alongside my fellow Marines in 1st Battalion 5th Marine Regiment as an 
Infantryman on three separate and distinct tours in Baghdad, Fallujah, 
and Al Ramadi. While on my second tour, four of my fellow Marines and I 
were wounded by an IED attack on our HUMMVEE. I wish I could speak of 
the incident in detail but I do not remember a great deal due to the 
shrapnel that imbedded itself in the back of my head and the loss of 
consciousness. I quickly recovered from my immediate injury and 
returned back to the United States with my unit during that summer. The 
following year I deployed to Al-Ramadi, Iraq with my unit in March of 
2005.
    Upon returning from Iraq in the summer of 2005, I participated in 
the mandatory TAP class prior to my discharge, which made an attempt to 
explain all the benefits available to me. However, it was difficult to 
fully understand what paperwork needed to be sent where, who needed to 
be contacted, while simultaneously preparing to move across the 
country. On August 6, 2005, I finally said my farewells and started 
another chapter in my life.
    The transition from the Marine Corps, to an academic environment 
was filled with frustration, miscommunication, and a sense of feeling 
out of place. To be honest, I felt more comfortable going to Iraq than 
stepping into a classroom. Only a few short weeks after my discharge 
from active duty, I began my first college classes and quickly learned 
that there were going to be obstacles to face due to my head injury in 
Iraq. It became clear as time went by, that my short-term memory loss 
had dramatic effects on my abilities to retain information and that I 
was going to need everyday assistance from professors and tutors.
    Although George Washington University and the majority of colleges 
and universities do not offer a transition program or direct assistance 
for veterans, I was lucky because my injuries qualified me for 
assistance from Disability Support Services (DSS). With an 
infrastructure to provide services and provide information, it seems 
only obvious that the VA should take the opportunity to partner with 
schools to assist in educating veterans on benefits available to them.
    There has also been many a time that I have learned of a benefit or 
other service available to me through word of mouth. A great deal of my 
knowledge about my entitlements and disability benefits has come from 
listening to other veterans who have already gone through this process. 
I would have been unable to afford the most expensive school in the 
country had I not heard about the VA Chapter 31 Vocational 
Rehabilitation benefit from another Marine. It was not easy to get 
approval, but Vocational Rehabilitation is the only reason I am able to 
attend George Washington University. Two Marines from my platoon had 
moved to the Philippines because the VA there was quicker and really 
cooperative to deal with. However, even over there they did not find 
out all that they were entitled to. When I told a fellow Marine that he 
could qualify for the same Chapter 31 benefit to return to Pepperdine 
University and finish the degree he had started prior to his enlistment 
he was amazed. The word of mouth is a powerful thing. I can only 
imagine if the VA were able to reach twice as many people, through a 
more sophisticated website or the use of e-mail, how many more veterans 
would be aware of the benefits to them.
    Now that you have heard my experiences of transition out of the 
military and into an academic environment, I want to speak about the 
main reason I came here today. As I am sure everyone is well aware, 
there is the strong brotherhood that is formed between men in combat. 
It has been over three years since my platoon turned in our weapons, 
dropped our packs, and took off our body armor, yet we continue to 
suffer causalities. On July 31 of this year, I received word from my 
best friend, Gunnery Sergeant Timothy Cyparski, that a member of our 
platoon had taken his life, that member was Corporal Timothy Nelson. 
Corporal Nelson was an ideal Marine; he took on adversity, followed 
orders, respected authority, and was a relief during trying times. I 
had not spoken to Nelson since I got out, but the news took me back to 
fond memories with my fellow brother.
    That week I talked to Cyparski regularly for support and answers. 
Nelson's death had brought a lot of the guys from the platoon back 
together and persuaded me to call guys that I hadn't talked to in 
years. From talking to other Marines in the platoon I found out that he 
had been recalled and was prepared to honor his country's call back to 
service. Upon his medical inspection, the Doctor disqualified him from 
duty because he had been diagnosed with PTSD. This, among other things 
was a factor in his tragic death. Gunny Cyparski flew to Washington 
State to help Nelson's newlywed wife and grieving family. He wanted to 
show them that Nelson will always be a brother to our platoon and that 
we will keep him in our hearts.
    Only a week after Cyparski flew out to Washington, I received the 
most devastating call imaginable. My best friend and my mentor, Gunnery 
Sergeant Timothy Cyparski, had taken his life--leaving behind his wife 
and two beautiful young children. The news hit us hard within the 
company, and many Marines came together in search of answers to why we 
just lost two brothers in two weeks. To me, Cyparski was the greatest 
Marine infantryman and a role model for us all. During his years of 
service he received two bronze stars for valor and one Purple Heart, 
which he got when we were injured in the HUMVEE from the IED explosion. 
However, those awards do little justice to a man who was admired and 
respected by the whole battalion. To me he was a great influence, and I 
base much of my success in school to his encouragement. We constantly 
talked and I asked him for advice and guidance. This being said, Tim 
did suffer from the effects of war and he had difficulties in dealing 
with his experience in Iraq and recovering from his injuries. However, 
he was proactive in seeking treatment and hoped to one day finish an 
academic degree to better provide for his family.
    I consider Corporal Nelson and Gunnery Sergeant Cyparski to be 
combat causalities. Their deaths were a result of their combat duty and 
this great Nation lost two outstanding heroes that can never be 
replaced. Our country is a little weaker now because of this.
    The past month and a half I have spent a great deal of my time 
reflecting on these incidents and what could have been done to save 
these two young Marines who had so much to look forward to. Through 
this reflection, I found that there is no single absolute correct 
answer--because each individual needs a different approach and 
different solutions. However, there are clear signs and similarities in 
the majority of these cases. For Corporal Nelson and Gunnery Sergeant 
Cyparski their similarities began with their diagnosis of PTSD and 
orders by medical staff to no longer carry the duties of a Marine 
infantryman. Being an infantryman was what they had signed up to be in 
the Marines and it was their passion. In addition, both had been given 
controversial medicine as treatment for their medical issues and were 
actively seeking help from medical professionals following their 
doctors' advice.
    Through my observations and experience, I have come to the 
conclusion that there needs to be a strong network of friends and 
family that are educated on the signs and symptoms. Obviously, families 
are more easily accessible than friends. However, this is not the case 
if you consider friends being members of their respective military 
unit. Others in the military and those who have served are more likely 
to be accessible by the VA outreach and more likely to recognize a 
problem and relate to the issue. Another aspect that needs to addressed 
is that those seeking treatment will not have the cases disclosed to 
anyone or threaten future job employment opportunities. I know the 
stigma associated with PTSD is not easily changed but there are steps 
that can be done to educate the veteran and our society as a whole 
about it.
    The process of rehabilitation and seamless transition out of the 
Armed Services begins with education. Therefore accessibility to the 
VA's resources should reflect the emerging demographic of veterans. 
Problems need to be addressed and new outlets to address them need to 
be explored. We are considered a young and technologically savvy 
generation. We depend on online mediums for information as much as 
television, or other media types. Great effort should be made to have 
the VA come to me; I should not have to spend the day calling numbers 
and extensions to receive information on my benefits. A case manger to 
coordinate appointments and discuss benefits with the veteran would be 
ideal. The small details and obscure programs that the VA offers need 
to be divulged to the veteran rather than him relying on word of mouth 
and his own investigating skills. The VA website needs to make its 
listed programs easier to understand; as it stands now I still have 
trouble understanding what I'm entitled to under the various programs. 
Email is a great option and should be examined further. The best way I 
have found to connect myself with the Marines I fought alongside with 
is social networks like MySpace and Facebook. If the VA would simply 
put a paid advertisement on the screen I think either a veteran having 
trouble or someone close to one would be inclined to at least see what 
the VA had to offer.
    I have great hope that the VA will be able to carry its message to 
a larger scope of audience. It needs to employ the very best that 
America has to offer in media and public awareness. If the Army and 
Marine Corps can sponsor commercials and half-time shows I believe that 
the VA can do an equally good job at putting the word out during those 
same time slots and to those same viewers. My demographic watches 
professional sporting events, MTV, The History, Military, and Discovery 
channels--we are a fairly easy to target audience.
    America is generous and grateful to its veterans. This fact is 
shown by the many organizations and individual Americans who have 
donated time and money to assisting us. However the problem lays in 
connecting the veteran to these services. A veteran cannot ask for 
something if he does not know it exists or where to go to receive it.
    I came here today for action. I know being here today will not 
change the fact that my two friends will never return. However, if 
speaking before you in this room can do anything to prevent another one 
of my fellow brothers in arms from going down that same path, then it 
will be a success. I know that the VA knows that media outreach is a 
necessity in order to inform veterans about their resources, it must 
happen now. This is a situation where over-saturation of the message is 
not possible. I ask America's elected leaders to stand up, unite under 
a solid commitment to do whatever it takes to put an end to these 
unnecessary losses. Corporal Nelson and Gunnery Sergeant Cyparski made 
a solemn oath to our Nation, please make one on their behalves.

                                 <F-dash>
        Prepared Statement of Carolyn Schapper, Representative,
         Iraq and Afghanistan Veterans of America (OIF Veteran)

    Mr. Chairman, Ranking Member and members of the Committee, thank 
you for the opportunity to testify today on the VA's first efforts at 
media outreach to veterans of Iraq and Afghanistan.
    As an Iraq veteran, I know how important the VA's outreach is. When 
I was in Iraq from October 2005 to September 2006, I served with the 
Georgia National Guard in Bayji, a town about 130 miles north of 
Baghdad. I was a member of a Military Intelligence Team that required 
me to go out on approximately 200 combat patrols.
    When I came home I dealt with a wide range of adjustment issues/
PTSD symptoms; rage, anger, seeking revenge, increased alcohol use, 
withdrawal from friends and family, depression, high anxiety, 
agitation, nightmares and hyper-vigilance. My symptoms altered and grew 
over time. I was not the person I used to be and I knew it. I suspected 
I might have PTSD, but I could not figure out if I did, even though I 
searched endless websites. Nothing was comprehensive, nothing spoke to 
me as an Iraq Vet. I even searched the VA website and it was no help to 
me. I could not put the pieces of the puzzle together on my own.
    The best way I can describe PTSD is feeling lost and disconnected, 
sitting in a dark hole. It is very hard to compose yourself to the 
point of working your way through the VA maze. Most people will not get 
help because it is so daunting. Personally, I would still be lost, or 
possibly worse, if I had not had the dumb luck of running into another 
veteran who already had gotten help, and who pointed out that a Vet 
Center could help me start the navigation of the VA system.
    Recently, when I first saw the VA's posters in the Metro, I thought 
it was fantastic that they were finally reaching out to veterans, 
instead of waiting for us to come to them. I have seen the posters 
several times. But I also had to ask: Where was the VA two years ago, 
when I really could have used it? Because the VA is so late to the 
game, there's a huge backlog of veterans who were not as lucky as I 
was, and who have not yet found their way to the services they need. 
There is a huge amount of catching up to do.
    I also recently read a copy of the letter the VA is apparently 
sending out in conjunction with this campaign that outlines several of 
these symptoms, I mentioned above, in one place. The letter is good and 
comprehensive, but I ask who is and is not receiving it? I have not 
received it.
    I also have some concerns about the way the ads are designed. For 
instance, the phone number is hard to read. A veteran in a crowded 
metro car is not going to want to draw attention to themselves by 
getting up and walking across to a poster. If they can sit far from the 
poster and still see the number, it would be much more effective. While 
these ads can and should definitely be improved, I am certain that even 
this outreach will help a few lost souls.
    Before being asked to testify, I had not come across the Public 
Service Announcement with Gary Sinese. One concern I have about the ad 
is that it focuses only on suicide, instead of the more typical combat 
stress reactions most veterans are facing. Most soldiers who may be 
facing PTSD do not want to admit it. They think ``I can handle it'' or 
``I am the lucky one, I have all my limbs, I do not deserve help.'' If 
the hotline is perceived as being only for those considering suicide, 
they may think they do not deserve to call it, that there are others 
worse off than them, and that they should just ``suck it up.'' We do 
not want them to suck it up until they really need a suicide hotline. 
PTSD is much better dealt with early, so the veteran has the best 
possible chance of recovery. Overall, I think the messaging for the TV 
ad could be improved. In addition, I know the hotline can be utilized 
by the families and loved ones of veterans, but that is not clear 
through the commercial as it is.
    I think a lot of these problems would be solved if the VA did more 
testing of the ads before they rolled them out. Testing the ads on 
focus groups of actual veterans would give them a better sense of what 
messaging would actually work. Also, ads in the Metro and on buses 
might not be as effective as TV, radio, print and online advertising, 
especially for the many new veterans from rural areas. I do not know 
what the guidelines for print advertising are for the VA, but the 
papers and magazines the majority of military men, at least, read are 
the Army Times and all the sister service Times papers, fitness 
magazines and magazines such as Maxim. Basically, anything that is sold 
in the PX/BX on base could be targeted. In addition, many many troops 
and veterans use MySpace, Facebook, and other online social networking 
sites.
    In my spare time, I am a representative of Iraq and Afghanistan 
Veterans of America, the country's first and largest nonprofit, 
nonpartisan Iraq and Afghanistan veterans group, with more than 100,000 
active veteran members and grassroots supporters nationwide. I wanted 
to let the Committee know about the progress IAVA has been making on 
our own anti-stigma campaign. IAVA has partnered with the Ad Council to 
conduct a multiyear Public Service Announcement campaign to reduce the 
stigma surrounding mental healthcare and to ensure veterans seeking 
access to care and benefits, and particularly those who need treatment 
for their psychological injuries, get the support they need. Ad Council 
is responsible for many of the Nation's most iconic and successful PSA 
campaigns in history, including ``Only You Can Prevent Forest Fires,'' 
``A Mind is a Terrible Thing to Waste,'' and ``Friends Don't Let 
Friends Drive Drunk.'' The IAVA-Ad Council PSAs will exist on 
television, radio, in print, outdoors and online, and will be rolling 
out in November of this year.
    But our PSA campaign will in no way eliminate the need for the VA 
to plan its own outreach and advertising campaign. Only a concerted 
effort on the part of the VA will ensure that veterans finally have 
easy access to the many benefits the VA has to offer. Thank you for 
your time.
    Respectfully submitted.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America

    Good morning, Mr. Chairman, Ranking Member and Members of the 
Subcommittee. On behalf of VVA National President John Rowan and all of 
our officers and members we thank you for the opportunity for Vietnam 
Veterans of America (VVA) to appear here today to share our views 
regarding Media Outreach to Veterans. We thank you for your leadership 
on this all important issue of vital importance to veterans of every 
generation. I will briefly summarize the most important points of our 
statement.
    It is a truism, but is none the less true that denial of knowledge 
of veterans' benefits, health issues, and available medical care is 
tantamount to denying said healthcare, benefits, and services. This is 
the situation that all too many veterans find themselves today, and 
they are not even aware of it.
    Vietnam Veterans of America (VVA) estimates that the majority of 
those in-country Vietnam veterans who have had prostate cancer and 
died, are battling prostate cancer today, or who have battled prostate 
cancer and are still surviving have no clue that it is related to their 
service in Southeast Asia during the war. Since about 80 percent of 
veterans do not go anywhere near a VA medical facility, and the 
majority of veterans do not belong to any veterans group, and the VA 
does virtually nothing to educate them and their civilian medical 
providers that prostate cancer is service connected presumptive at VA 
and that we are twice as likely to get prostate cancer as those who did 
not serve in SE Asia, this fact is not surprising.
    Some may ask ``what is the big deal about that?'' Well, what it 
means for those veterans who get very sick and die is that often their 
families are left with enormous and crushing medical bills that 
endanger the retention of the home. Instead of VA paying for something 
that should be treated as service connected, and the veteran receiving 
compensation while he is too sick to work and the widow receiving 
dependency & Indemnity Compensation (DIC) if he dies, the widow and 
family are left with nothing but debts and in dire financial straights. 
This is just so wrong on every level. It is egregious that this 
situation is allowed to continue. Yet VA has done nothing about it, 
despite the fact that VVA has repeatedly used this example with the 
current and previous top leadership of VA, to no avail.
    This is only one example that is specific to Vietnam veterans, but 
similar situations exist for the veterans of very generation, whether 
it be cold injuries and parasites endemic to the Korea, or the 
diseases, parasites, and extreme environmental exposures of Gulf War I 
veterans.
    Part of the problem is a mindset of the VA that says ``we do not 
have the resources to do anything new, so we will just deal with the 
overt presentations of those who happen to come to us'' and can get 
into the system in the first place. As the distinguished members of 
this panel know, as many as a million veterans have been denied entry 
into the VA since January of 2003 when a ``temporary'' hiatus was put 
into effect regarding accepting veterans who are not indigent or 
service connected. This has had a ``chilling'' effect on others who do 
not even try to gain entry.
    Further, even within the VA the tools that exist are not used to 
full effect. An example is the ``Veterans Health Initiative'' (VHI) 
curricula that is a series of reasonably well done curricula (about 26 
at last count) that are designed to teach clinicians and medical 
professionals about the wounds, illnesses, conditions, and maladies 
that stem from military service depending on what branch did one serve, 
when did one serve, where did one serve and when, what was your 
military occupational specialty (M.O.S.), and what actually happened to 
you in military service. These curricula range from ``Caring for War 
Wounded'' which is designed for ALL primary care physicians, to 
Military Sexual Trauma, to Cold Injuries, to Traumatic Brain Injuries. 
I have here a sampling of these curricula that are available at 
www.va.gov/vhi to anyone at the VA or in the civilian medical world, or 
to veterans. However, this is one of the best kept secrets at VA.
    Another well kept secret at VA is the existence of Military History 
cards that have a series of basic questions that should be asked of 
every veteran seeking services at the VA and used in the diagnosis and 
treatment protocols. As a matter of fact, it has been a requirement in 
Veterans Health Administration regulation to take a military history 
for each veteran since 1982 . . . but they don't do it as a matter of 
course. (See www.va.gov/oaa/pocketcard/ or attachment #1).
    VVA has been promised regularly by everyone from the VHA computer 
people to four different Undersecretaries of Health to three successive 
Secretaries of Veterans Affairs to the Chief of Patient Care Services 
to others that the VA will move to make the military history part of 
the automated patient treatment record. These have all proven thus far 
to be ``pie crust promises,'' which are of course ``promises'' that are 
easily and facilely made . . . and easily broken. Were the existence of 
the VHI curricula known to all VA clinicians, and the military history 
part of the computerized patient treatment records then there could be 
proper clinical reminders based on a decision tree. To test for 
possible exposures and maladies/conditions/exposures that may stem from 
the nature of that individual veteran's service. This will educate VA's 
own clinicians in the wounds, maladies, conditions, and injuries of war 
who in turn will better educate the veterans whom they serve. Frankly 
the most credible outreach means available to reach and educate 
veterans is other veterans. Veterans will believe another vet long 
before they will believe a press release or a slick VA brochure.
    How do you reach the average veteran when most do not have any 
contact with the VA nor do they belong to any veterans' organization 
(except maybe a unit association which rarely even talks about benefits 
and healthcare)? All of this leads to the conclusion that the only ways 
to reach most veterans, and their families, is through the general 
media. That would include traditional media such as newspaper articles, 
radio, television. It also must today include FaceBook, Vets4Vets, 
YouTube, etc. and other modalities employing the medium of the 
Internet. But most of all it must be a stance of telling the 
unvarnished truth, and not the current stream of only self-
congratulatory and/or defensive pronouncements. VA officials must ``get 
it'' before they can possibly hope to communicate effectively with 
individual veterans given the baggage of so much bad past history.
    As the members of this panel are also no doubt aware, VVA joined 
with the Honorable Ted Strickland (then a member of this distinguished 
panel) and the Georgetown Center for Law and the Public Interest to sue 
VA over the now infamous VHA memo in August of 2003 that curtailed all 
marketing and publicity of available medical services by VA. What you 
may not be aware of is that we won that suit. The Federal Court gave 
VVA standing to bring the suit on behalf of our members, and ruled that 
VVA was correct that the Secretary of Veterans Affairs was compelled 
under Title 38 to exercise an affirmative responsibility to ensure that 
all veterans were informed of the rights, benefits, and medical 
services due to them by virtue of serving in the United States Armed 
Forces.
    It was no accident that the theme of the 75th Anniversary of the VA 
was outreach to every living veteran to inform each of what services 
were available to them by virtue of their military service. It was in 
response to the order of the Federal Court. Of course, I need not tell 
the members of this panel that it is debatable whether the lofty stated 
goal was seriously pursued during that 12 to 15 month period. It was 
not, at least not in the view of VVA.
    So where does that leave us today? VVA does support any and all of 
the good things that VA tries to do, such as the public service 
announcement about the Suicide Hotline (which VVA put on our home page 
the same day it was suggested), distribution of VVA materials ranging 
from videos, to bumper stickers, to brochures, to whatever is not a 
``puff piece'' that is available from the VA.
    There is of course a constant stream (if indeed not a torrent) of 
self laudatory press releases that emanates from the VA. Because it is 
generally so patently self serving and not ``the rest of the story'' as 
Paul Harvey would say it is taken less and less seriously by anyone who 
follows this stuff, particularly the press.
    VVA is in the process of launching our own effort in association 
with organizations in the civilian sector to inform non-VA clinicians 
as to the wounds, maladies, conditions, and wounds of war as a way of 
educating the clinicians who see the majority of veterans. Since we 
have virtually given up on trying to convince the current VA leadership 
(both at the permanent top civil service level as well as the political 
level) to make VA what it was always intended to be--a ``veterans' 
healthcare system'' and not a general healthcare system that happens to 
be for veterans, and on them doing anything meaningful or consistent in 
regard to educating the public or most veterans, we have, of necessity, 
embarked on a years long major effort to go around them in order to get 
the job done properly
    Mr. Chairman, I again thank you for the opportunity to appear here 
today, and hope our remarks will prove helpful to you and your 
colleagues. I will be happy to answer any questions you or your 
colleagues may have.

                                 <F-dash>
                   Prepared Statement of Cary Hatch,
   President and Chief Executive Officer, MDB Communications, Inc., 
                             Washington, DC

    Good morning. My name is Cary Hatch.
    I am the President and Chief Executive Officer of MDB 
Communications. MDB is an independent, 27-year-old, advertising agency 
headquartered in Washington DC. We serve a diverse, national and global 
client base including National Geographic, Hunter Douglas and Boston 
Market.
    We have also worked for the Partnership for a Drug-free America, 
The Wellness Community, and Samaritan Inns for the homeless.
    Our agency expertise encompasses television, print, online and 
social media--as well as direct marketing and PR programs.
    I'm privileged to serve as the Chairman of the Mid-Atlantic Board 
of Governors for the American Association for Advertising Agencies 
(4A's), and recent Chairman of Advertising Week DC. I also serve on the 
Executive Committee of the Greater Washington Board of Trade--and hold 
a board position for Leadership Greater Washington. I've been fortunate 
to be recognized as a Silver Medal Honoree--an honor given by the 
American Advertising Federation for leadership and commitment to the 
community and the industry.
    More importantly, as a lifelong advocate and perpetual student of 
the ever-changing advertising industry--I've devoted my entire career 
to leading advertising and marketing initiatives that meet or exceed 
their goals--and I maintain a keen sensitivity to the return on 
investment for every program we lead or are part of, no matter the 
brand--whether publicly traded or not-for-profit.
    Thank you for the opportunity to share my thoughts today, regarding 
the pilot program for the Veterans Administration's current outreach 
efforts.
    With the new directive from Secretary Peake, the VA is provided 
with a wonderful opportunity to utilize paid media to fulfill a 
``communications mission'' to promote awareness of veterans programs 
including:

    <bullet>  opportunities for education, training, healthcare and 
other benefits including the prevention of veteran suicides.

    Chairman Mitchell, during the last hearing--ably pointed to the 
need for The VA ``to take advantage of the communication possibilities 
of modern media. But it must do so intelligently.'' This was further 
supported by Hon. Ginny Brown-Waite, stating that ``21st Century 
technology needs to be explored.''
    Furthermore--Chairman Mitchell went on to correctly point out that 
VA marketing efforts, are ``not about the VA, it is about our 
veterans''.
    ``Before doing anything, the VA must learn to see the world from 
the perspective of the veterans the VA wants to reach. The VA must come 
to understand where veterans can be reached and what messages and 
messengers will get veterans' attention. And he went on to acknowledge 
that ``This is not something VA has done before.''
    I'm proud to underscore that the history, power and corresponding 
results of public service advertising has been well documented since 
1941. Whether we consider The United Negro College Fund's ``A mind is a 
terrible thing to waste'' campaign; the Peace Corps' ``The toughest job 
you'll ever love''--or the Partnership for a Drug-free America's 
numerous campaigns that ``un-sell drug use . . . they've all have been 
effective in changing perceptions and behavior. Key to this are the 
fundamental tenets found in all effective advertising campaigns.
    Therefore Public Service Advertising, as with all advertising, 
relies on achieving their potential by calibrating the following 
ingredients:

    <bullet>  The right message--(one central idea that matters to 
them)
    <bullet>  The right media--(reaching the target based on their 
media consumption habits)
    <bullet>  And propelled by sufficient investment/spending levels 
(media weight) to communicate the message to the perspective target--
and securing reasonable awareness--resulting in comprehension, 
conviction and motivation to move to action . . . when needed.

    In order to ensure that is done--the VA must produce the
Right Message: garnering a Visceral response_that will lead to action
    In my experience, in working on the Partnership for a Drug-free 
America, the best campaign successes are founded on specific consumer 
research that identifies a unique consumer insight that is in turn 
conveyed to the target in a meaningful way.
    This is the distinctive talent that seasoned advertising 
professionals bring to life. While advertising is not an exact science, 
or merely an art--it is a combination of research, insight, inspiration 
and persuasion that moves people to consider your message and compel 
them to act on and/or advocate for your notion. When done well, 
tremendous results can take hold, done poorly your effort will join the 
clutter of thousands of messages that lay dormant. Hire a pro.
    One option is to engage with the Ad Council--if this has not been 
considered already.
    The Ad Council marshals volunteer talent from the advertising and 
communications industries, the facilities of the media, and the 
resources of the business and non-profit communities to create 
awareness, foster understanding and motivate action.
    Ad Council campaigns are produced pro bono by advertising agencies 
retained by the American Association of Advertising Agencies. Each Ad 
Council campaign is sponsored by a non-profit organization or a 
government agency that provides the production and distribution costs 
and serves as the ``issue expert.'' The Ad Council works with the 
advertising agencies and the sponsor organizations throughout the 
development of the campaign by conducting research, media outreach, 
public relations activities, and creative services.
Investment spending
    Brilliant advertising ideas can only take flight when supported by 
ample (but prudent) investment spending. Top-notch creative ideas must 
be supported by reasonable budgets that allow them to realize their 
desired results.
    It is important to note that the airtime that PSA campaigns seek 
can be largely decided by PSA directors at media outlets across the 
country--And getting them to select to air YOUR TV spot can rely on not 
just your cause--but the quality and impact of the campaign you submit 
for their consideration.
    The directive here is to meet the needs of the Public Service 
Directors--the very folks you need to engage to actually run your TV 
spots--and place your print or transit work.
    I am a tenacious advocate of managing campaign expectations by 
aligning investment spending with projected results . . . as they are 
in direct correlation to one another, and a necessary and disciplined 
effort to bring any program to a successful conclusion.
    Which leads me to the next tenet:
Using the Right Media: or ``Fish where the fish are''
    It is my understanding that in addition to reaching all prospective 
candidates for VA support--ensuring that we reach the younger veteran 
as well, is of prime importance--specifically those young men and women 
returning from Iraq and Afghanistan.
    I believe it was Chairman Mitchell that stated: ``The need for 
outreach is not limited to our younger veterans. The VA has transformed 
itself over the past 10 to 15 years. VA needs to find ways to 
communicate to older veterans that the VA has health and other services 
and many benefit programs of which veterans might not be aware, that 
veterans of all ages can benefit from.
    I would put forth for your consideration that with the evolving 
media consumption habits of the country (and indeed the world) . . . 
embracing the fast-paced area of new media options should be a foremost 
consideration for a campaign of this type.
    Use of social networking platforms such as FaceBook, MySpace, and 
others may prove to be some of the most cost-effective media strategies 
the VA can examine and exploit.
    Modern media, such as online advertising campaigns, social 
networks, SEM--search engine marketing, contextual targeting, etc. in 
addition to television, are essential tools for outreach, particularly 
when it comes to the young and older servicemembers alike.
    Strategically, when there is alignment on:

    <bullet>  the definition of ``what success would look like;''
    <bullet>  smart investment of funds;
    <bullet>  seasoned agency partners; and
    <bullet>  a firm commitment to tracking of campaign results . . .

    . . . a solid campaign roadmap and program outcomes can be 
achieved.
    I look forward to hearing the results of the test program here in 
Washington DC and the learning achieved from that--that is likely to 
shape the program going forward. I think we can all agree that there is 
much to consider in committing additional funding to roll out the 
program on a regional or national level.
    In summary, recommendations include:

    <bullet>  Consider working with the Ad Council and/or an AAAA's 
agency to guide this initiative. Their experience in this arena can 
shorten the inevitable ``learning curve''--and the lack of experience 
the VA has acknowledged in this arena. This strategic alliance is 
likely to ensure the best use of the government's resources.
    <bullet>  Developing and documenting the desired outcomes of such a 
campaign (what does success look like?) and committing to tracking 
campaign performance with regular reporting.
    <bullet>  Evaluating and aligning the internal VA leadership that 
will direct and administer the campaign (and who will work with outside 
firms and agencies) to maximize internal talent and external expertise.

    It is critical that the VA embark on a nationwide effort--with the 
best professionals it can secure by its side--in this unchartered 
arena. This is necessary to avoid wasted time and money--and key to 
achieving its intended goals--of informing and supporting our veterans.
    Thank you again for the privilege to meet with you and share my 
point of view on this important program. The power of advertising is 
great--and outcomes can be significant--when based on thoughtful, 
strategic and comprehensive planning that leads the way.

                                 <F-dash>
            Prepared Statement of Hon. Lisette M. Mondello,
     Assistant Secretary for Public and Intergovernmental Affairs,
                  U.S. Department of Veterans Affairs

    Chairman Mitchell, Ranking Member Brown-Waite, and Members of the 
Subcommittee, I am pleased to be here again to provide the Committee 
with an update on the progress the Department of Veterans Affairs (VA) 
is making under the new authority to use professional marketing and 
advertising resources to more effectively reach and educate veterans 
and their families about VA benefits and services. Even in the short 
time since I last testified before this Committee, I am encouraged by 
our progress.
    I will also provide the Committee with an interim update on the 
initial results of the Veterans Health Administration's (VHA) pilot 
advertising campaign on suicide prevention in the Washington, DC, 
metropolitan area.
    Once again I want to thank you and other Members of the Committee 
not only for your strong support for outreach that includes purchasing 
media advertising but your continued interest in following our 
progress.
    Just four months ago, Secretary Peake lifted the restriction on 
paid media advertising. I was then, and I continue to be, an 
enthusiastic supporter of this effort on the advertising policy.
    I testified at the July hearing that among the challenges we had to 
meet was to develop a Request for Proposal (RFP) to contract for 
professional advertising expertise. In order to expedite our efforts, 
VA's contracting office recommended using the Federal Supply Schedule 
(FSS). Using the FSS will allow us to target all aspects of the 
marketing and advertising community, particularly small businesses and 
especially veterans-owned small businesses.
    The FSS has already provided an extensive array of professional 
advertising vendors with the expertise we need to help us shape our 
marketing and advertising strategy. I am currently in the process of 
interviewing a number of these companies, and I will keep you up-to-
date as we approach decisions to solicit a request for quotations.
    One key aspect of our new authority allows the Under Secretaries of 
Benefits, Health, and Memorial Affairs to purchase advertising in media 
outlets for the purpose of promoting awareness of benefits and services 
in coordination with VA's public affairs office. This will allow them 
to identify their requirements to improve outreach efforts, to enhance 
their overall customer service performance measures, and to give us 
feedback as to what methods of outreach are most effective. It will 
give VA, with its variety and diversity of services and benefits, the 
ability to provide the right message through the right medium to reach 
veterans.
    Furthermore, VA is part of an 18 Federal agency working group to 
try to be a presence on popular social networking sites. Discussions 
are underway to resolve legal issues, but VA and other Federal agencies 
are working together to secure agreements with those Web sites.
    While we expand into new media, our basic goal remains unchanged: 
to reach all veterans of all eras of service with the messages of 
greatest concern to them through the medium that is most effective.
    VA's effort is dynamic, and it has the potential to produce strong 
outcomes in many areas. Although it may be hard to capture and provide 
all of this information, we will provide the Committee with a more 
comprehensive overview in December when we submit our scheduled Report 
of Outreach Activities to the Congress. We also aim to include this 
fiscal year's accomplishments of our market and advertising business 
plan objectives, which will be linked to the strategic plan goals in 
the report.
    For FY 09, the Office of Public and Intergovernmental Affairs 
(OPIA) will have up to a million dollars available to administer this 
effort. In addition, the VBA, VHA, and NCA program budgets provide for 
outreach as an integral component of their business plans for the 
delivery of program benefits and services.
    Finally, one concrete action I described at the July hearing: a 
Veterans Health Administration pilot advertising campaign on suicide 
prevention. We showed you the draft of ads that we were developing that 
would be used on Metro buses and at Metro stations, and I am pleased to 
have the opportunity to update the Committee on our progress.
    We began the process to select the message for this awareness 
campaign pilot project while we were still subject to the paid 
advertising restriction. VHA decided that a reasonable, alternative 
approach would be to have the project team attend a message development 
workshop. The workshop was conducted by a communications company, 
contracted by the Department of Health and Human Services, Substance 
Abuse and Mental Health Services Administration (SAMHSA). That workshop 
helped to prepare the VHA team with the basic skills training necessary 
to develop a message focused on veteran's age, gender, and life 
experience considerations.
    Subsequently, the team arranged for, conducted, and analyzed the 
results of several feedback sessions from randomly selected veterans, 
suicide prevention coordinators, and VA employees who are also 
veterans. They received candid feedback and recommendations for 
revision. They further considered the recommendations and guidance I 
received from the Committee at the July 15 hearing, and as a result we 
arrived at the final message. We continue to seek and plan to make use 
of further feedback.
    The approximate cost for production and distribution including 
artwork, printing and the leased space for advertisement for the pilot 
was $115,000. This funding comes from the VHA mental health budget.
    The criteria used to assess the effectiveness of the Washington 
Metro pilot public awareness campaign are the rate of increase in daily 
calls to the suicide prevention hotline and the rate of increase of 
veterans seeking consultation by the suicide prevention coordinators at 
the Washington, DC, VA Medical Center. Using these outcome measures, 
VHA's analysis of the pilot campaign outreach results revealed a very 
positive effect. The data shows a 50- to 100-percent increase in calls 
from the area where the advertising is running. Specifically, the 
average weekly calls from area codes in the DC area increased from 6 to 
14; in Northern Va. area codes, from 5 to 14; and in Maryland area 
codes, from 10 to 27.
    Our goal has not changed since we last met. We will do all we can 
to make veterans and their families aware of the benefits and services 
VA has to offer. We will take advantage of new opportunities, keep an 
open mind, and aggressively seek to find the best advertising 
technology and methods available. I believe we are in total agreement: 
We must continue to move forward with sound expertise based upon the 
strategic needs of the Department using a variety of options to reach 
out and positively connect with veterans and their families.
    Mr. Chairman, this concludes my formal statement. We will continue 
to seek your counsel as we move forward. I am pleased to respond to any 
questions you or the Subcommittee Members may have.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                 September 24, 2008
Hon. James B. Peake, MD
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Peake:

    On Tuesday, September 23, 2008, the Subcommittee on Oversight and 
Investigations of the House Committee on Veterans' Affairs held a 
hearing on Media Outreach to Veterans: An Update. Thank you for the 
testimony of the Honorable Lisette M. Mondello, Assistant Secretary for 
Public and Intergovernmental Affairs. In addition, thank you for 
sending Everett A. Chasen, Chief Communications Director, Veterans 
Health Administration, U.S. Department of Veterans Affairs to accompany 
Assistant Secretary Mondello.
    Please answer the following questions:

     1.  What will you need to see from the pilot program in terms of 
results in order to expand it to a national campaign?
     2.  Does the VA have all the resources and legal authority you 
need to run the campaign in its entirety, including an eventual 
national expansion, and maintain accountability and tracking?
     3.  We have heard from veterans that sometimes they don't need 
suicide counseling, but just another veteran to talk to concerning 
PTSD. We know there are other call centers that accomplish this goal 
and this is a high-priority mission for the Vet Centers.

            a.  Do you plan on promoting these alternatives to the 
            suicide hotline?
            b.  Did you consider this in developing the pilot program 
            and suicide hotline promotional material?

     4.  You have explained that response calls increased from the 
areas where the pilot advertising is running. How many of these calls 
were from the veterans actually seeking urgent help?
     5.  In your testimony you stated that there will be up to one 
million dollars budgeted for this pilot program to roll out nationally. 
Will any money for this program have to come out of VHA's mental health 
budget? And if so, would it assist VA if during the next budget process 
we create a separate budget line item for advertising that way the 
three administrations within the VA can pull from that pot of money for 
advertising?
     6.  In your response to my written questions after the July 15th 
hearing, you mentioned that VA is considering purchasing ad time in 
movie theaters around the country to air the Gary Sinise PSA. Why does 
the VA think this method is so promising? Is this a better way of 
reaching veterans than television?

            a.  If this method is selected, how soon would this PSA 
            begin showing in theaters?
            b.  Has the VA done any analysis as to what something like 
            this would cost, or established how the VA would measure 
            its effectiveness?

     7.  The pilot public awareness campaign in Washington, DC, is 
coming to a close, and we have seen encouraging results. Last week, the 
VA told the Subcommittee on Health that it now supports an extension of 
the campaign to other areas. Does the VA have a plan yet for when, 
where, and how this will be expanded?

            a.  If not, when can we expect one?
            b.  By what criteria will the VA choose additional cities?

     8.  I would like to ask you about the upcoming nationwide 
distribution of the Gary Sinise PSA. It is my understanding that the 
PSA will be made available to television stations by mid-October free 
of charge. Does the VA have a plan to track where, when, and how often 
it ultimately airs, and if those time-slots are the best PSA time-slots 
to reach veterans?

            a.  If not, how does the VA plan to evaluate the 
            effectiveness of the PSA?

     9.  Regarding the Gary Sinise PSA, if this video was completed in 
time to show it at the July 15 hearing, a week before the pilot public 
awareness campaign began in DC, and if the VA has found it valuable 
enough to post on its Web site, why is it not already available to TV 
stations, especially stations in DC, where the VA's pilot public 
awareness campaign is under way?

            a.  Did the VA have feedback about the PSA before 
            distributing it nationally?

    10.  As the Subcommittee established in the July 15th hearing, the 
VA needs marketing experts to provide guidance for creating the most 
effective message. We understand that you are using the Federal Supply 
Schedule to acquire these services. Can you describe your criteria in 
selecting a vendor, and can you provide us with the VA's timeline for 
finalizing a contract?

    If you have any questions concerning these questions, please 
contact Subcommittee on Oversight and Investigations Staff Director, 
Geoffrey Bestor, Esq., at (202) 225-3569.

            Sincerely,
                                                  HARRY E. MITCHELL
                                                           Chairman

                               __________
                        Questions for the Record
               The Honorable Harry E. Mitchell, Chairman
              Subcommittee on Oversight and Investigations
                  House Committee on Veterans' Affairs
                           September 23, 2008
                 Media Outreach to Veterans: An Update

    Question 1: Assistant Secretary (AS) Mondello explained that calls 
to the suicide hotline have increased from the areas where the D.C. 
pilot program is posted on buses and trains. How many of these calls 
were veteran-related?

    Response: The Department of Veterans Affairs (VA) does not have the 
ability to track the specific nature of calls to the hotline by area 
codes at this time. VA has reviewed the call logs, and it has been 
determined that calls from veterans are increasing. There are numerous 
specific reports of veterans who called the hotline from the 
Washington, DC area who were indeed having difficulty and stated they 
got the number from the ``train'' or ``bus'' advertisement.

    Question 2(a): In AS Mondello's testimony, she stated that there 
will be up to one million dollars budgeted for outreach purposes. Will 
any money for this program have to come out of VHA's mental health 
budget? If so, would it assist VA if during the next budget process we 
create a separate budget line item for advertising that way the three 
administrations within the VA can pull from that pot of money for 
advertising?

    Response: Public health messages for suicide prevention will be 
funded through the Mental Health Enhancement Initiative, a component of 
the Veterans Health Administration (VHA) funding that is directed 
toward mental health services. With an allocation of $557 million for 
fiscal 2009, the initiative has sufficient funding to support outreach 
for purposes of suicide and prevention, and to enhance the delivery of 
mental health services in VA medical centers and clinics.

    Question 2(b): If so, would it assist VA if during the next budget 
process we create a separate budget line item for advertising that way 
the three administrations within VA can pull from that pot of money for 
advertising?

    Response: As we begin to make concerted efforts to implement 
advertising, we need to have flexibility. Therefore, we would not seek 
a separate line item for advertising at this time.

    Question 3(a): The pilot public awareness campaign in Washington, 
DC, is coming to a close, and AS Mondello has seen encouraging results. 
Last week, the VA told the Subcommittee on Health that it now supports 
an extension of the campaign to other areas. Does the VA have a plan 
yet for when, where, and how this will be expanded?

    Response: VA is actively working on an extension plan for the 
Suicide Prevention public awareness campaign.

    Question 3(b): If not, when can we expect one?

    Response: The plan should be completed by mid-December 2008. This 
will allow us time to evaluate the current campaign in Washington, DC 
and conduct field research. Mid-December is also the beginning of the 
holiday season, a time when depression rates increase.

    Question 3(c): By what criteria will the VA choose additional 
cities?

    Response: Several factors go into this decision-making process, but 
principally, VA will consider the reported number of events of 
veterans' suicidal behavior, including attempted and completed suicide, 
for both enrolled and non-enrolled veterans in the community. Other 
considerations are the availability of mass transit systems and the 
level of readiness of these localities (specifically, the availability 
of expert suicide prevention coordinators, dynamic suicide prevention 
programs and active community intervention strategies) to respond to 
the additional volume of calls.

    Question 4: We have heard from veterans that sometimes they do not 
need suicide counseling, but just another veteran to talk to concerning 
PTSD. We know there are other call centers that accomplish this goal 
and this is a high-priority mission for the Vet Centers. How will you 
promote these alternatives to the suicide hotline?

    Response: The Vet Center call center (an alternative to the suicide 
hotline) is staffed 24/7 by peer combat veterans. Vet Centers are VA's 
nationally acknowledged pioneer leader in outreach and adjustment 
services to combat veterans of all theaters. Vet Centers are designed 
as primary community access point for combat veterans in VA. The Vet 
Center program understands the value of veteran-to-veteran peer 
outreach services in overcoming the devastating effects of stigma 
common to many combat veterans related to accessing professional help. 
In addition to extending the program's outreach capacity, the call 
center will promote confidential veteran peer counseling and 
information on military-related issues, such as Post Traumatic Stress 
Disorder (PTSD) and other readjustment problems. The call center will 
be integrated with the suicide hotline, a 24/7 medical referral with 
the capacity to transfer veterans without hanging up. The call center 
will provide benefits and other information that promote getting the 
veteran to the nearest location for assistance. The call center will be 
integrated with the VA system to ensure timely referrals, crisis 
intervention, and follow-up services. The Vet Center program's ability 
to provide a safe community-based environment and assurances of strict 
confidentiality renders the program the optimum choice for implementing 
a call center for traumatized combat veterans. The projected target 
date for implementing the call center is December 2008.
    Prior to implementation, the call center will be announced 
publically via a VA news release. Once in place and operating, the call 
center will be part of all Vet Center outreach briefings, both in the 
community and at military demobilization, to include National Guard and 
Reserve sites. Vet Center brochures will also be developed to promote 
the call center and telephone numbers will be incorporated into the 
Readjustment Counseling service Web site, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbababae3bba8b9aea8a3b9a8bf8dbbace3aaa2bbe3">[email&#160;protected]</a>

    Question 5: Regarding the Gary Sinise PSA, since this video was 
shown at the July 15 hearing along with the posters for the DC pilot 
program, why was the PSA not aired on TV, especially in DC where the 
pilot public awareness campaign is under way?

    Response: The Gary Sinise public service announcement (PSA) shown 
at the July 15 hearing, was not yet complete. The PSA's completion was 
delayed due to negotiations with Paramount Entertainment Industries to 
use Forrest Gump clips in the PSA.

    Question 6(a): It is my understanding that the PSA will be made 
available to television stations by mid-October free-of-charge. Does 
the VA have a plan to track where, when, and how often it ultimately 
airs, and if those time-slots are the best PSA time-slots to reach 
veterans? If not, how does the VA plan to evaluate the effectiveness of 
the PSA?

    Response: The contract for the suicide prevention PSA distribution 
was awarded Wednesday, October 8, to the Plowshare Group, Inc. The 
distribution through the contractor began the week of October 20 and 
will continue throughout the weeks leading up to Veterans Day. The 
Washington, DC market will receive emphasis, and the ABC affiliate in 
DC has expressed interest in this PSA.
    All tapes and digital files sent to television stations will have 
an encoding signal commonly known as ``Sigma'' or ``SpotTrack'' 
encoding. These encoding methods help track how many times, where, and 
what time of day the PSA aired. With other data provided by the 
contractor, the demographics of the viewing audiences can also be 
ascertained.
    VA will also explore the distribution of the PSA to 800 cable-
access stations across the country, which participates in the 
``Soldiers Radio and Television Network''. VA has a positive experience 
with many of these stations in that they aired our ``VA TV'' program in 
the past. We believe that the yield will be high and many of these 
stations will broadcast the Gary Sinise PSA.
    The PSA has already been airing regularly on the Pentagon Channel. 
The Pentagon Channel is seen on military installations around the 
world, and is carried by over 60 U.S. cable networks.
    VA is exploring other free venues, such as military movie theaters 
and the closed-circuit television programming found at military base 
exchanges and commissaries.

    Question 7(a): In AS Mondello's response to my written questions 
after the July 15th hearing, you mentioned that the VA is considering 
purchasing ad time in movie theaters around the country to air the Gary 
Sinise PSA. Why does the VA think this method is so promising? Is this 
a better way of reaching veterans than television?

    Response: The use of theaters will be a complementary distribution 
venue for our message of suicide prevention in markets where research 
indicates it will be appropriate. We are exploring the use of theaters 
to complement the televised PSA, especially in those markets where 
public transportation is not as heavily used as it is in the DC Metro 
area. A final decision has not been made regarding whether theaters 
will be used. That decision will be made once costs in various markets 
are available and have been reviewed.

    Question 7(b): If this method is selected, how soon would this PSA 
begin showing in theaters?

    Response: A final decision has not been made regarding whether 
theaters will be used. Once the analysis is completed, VA will update 
the Committee on its timeframes for such placements, if any.

    Question 7(c): Has the VA done any analysis as to what something 
like this would cost, or established how the VA would measure its 
effectiveness?

    Response: VA is currently conducting an analysis to determine the 
cost of placing PSAs in movie theaters. Once the analysis is completed, 
VA will update the Committee on its projected cost, and plans for 
accomplishing such placements, if any. If VA decides to place PSAs in 
movie theaters, its effectiveness will be measured by the following:

    <bullet>  increased number of calls to the suicide hotline in areas 
where the PSAs were placed in theaters; and
    <bullet>  increased referrals to the local VA medical centers.

    Question 8: As the Subcommittee established in the July 15th 
hearing, the VA needs marketing experts to provide guidance for 
creating the most effective message. We understand that the VA is using 
the Federal Supply Schedule to acquire these services. What criteria 
are being used in selecting a vendor, and can you provide us with the 
VA's timeline for finalizing a contract?

    Response: In keeping with the Department's mandate, as well as the 
intent of Congress, our procurement will be targeted to Veteran Owned 
Small Businesses (VOSB). We reviewed the General Services 
Administration's Schedule 541 Advertising & Integrated Marketing 
Solutions (AIMS) for Veteran Owned Small Businesses sources. 
Specifically we reviewed the following Special Item Numbers:

    541 1  Advertising Services
    541 2  Public Relations Services
    541 3  Web Based Marketing Services
    541 5  Integrated Marketing Services
    541 4A Market Research and Analysis Services

    As a result of this analysis, we identified 25 Veteran Owned Small 
Business firms that could potentially provide the required services, 12 
of which are in the Washington, DC, Metropolitan Area. Because the 
selected vendor will being working closely with VA Central Office 
staff, a decision was made to target the 12 vendors in the Washington, 
DC, Metropolitan Area.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
